<html>
<title> - STANDING WITH PUBLIC SERVANTS: PROTECTING THE RIGHT TO ORGANIZE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     STANDING WITH PUBLIC SERVANTS:
                    PROTECTING THE RIGHT TO ORGANIZE

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 26, 2019

                               __________

                           Serial No. 116-32

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-318PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
             
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                FREDERICA S. WILSON, Florida, Chairwoman


Donald Norcross, New Jersey          Tim Walberg, Michigan
Joseph D. Morelle, New York            Ranking Member
Susan Wild, Pennsylvania             David P. Roe, Tennessee
Lucy McBath, Georgia                 Rick W. Allen, Georgia
Lauren Underwood, Illinois           Francis Rooney, Florida
Haley M. Stevens, Michigan           Jim Banks, Indiana
Joe Courtney, Connecticut            Russ Fulcher, Idaho
Marcia L. Fudge, Ohio                Van Taylor, Texas
Josh Harder, California              Steve C. Watkins, Jr., Kansas
Donna E. Shalala, Florida            Ron Wright, Texas
Andy Levin, Michigan                 Dan Meuser, Pennsylvania
Lori Trahan, Massachusetts           Dusty Johnson, South Dakota
(VACANT)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 26, 2019....................................     1

Statement of Members:
    Walberg, Hon. Tim, Ranking Member, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     4
        Prepared statement of....................................     6
    Wilson, Hon. Frederica S., Chairwoman, Subcommittee on 
      Health, Employment, Labor, and Pensions....................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Brewer, Mr. Tom President, Charlotte North Carolina Fire 
      Fighters Local 660 and North Carolina Fighters' 
      Association, Mooresville, NC...............................    25
        Prepared statement of....................................    27
    Messenger, Mr. William L., J.D. Staff Attorney, National 
      Right to Work Legal Defense Foundation, Springfield, VA....    36
        Prepared statement of....................................    38
    Onder, Hon. Robert F., M.D., State Senator, Missouri General 
      Assembly, Jefferson City, MI...............................    20
        Prepared statement of....................................    22
    Paterson, Mr. Teague P., Deputy General Counsel, American 
      Federation of State, County and Municipal Employees 
      (AFSCME), Washington, DC...................................    43
        Prepared statement of....................................    45
    Slater, Dr. Joseph, J.D., Ph.D. Eugene N. Balk Professor of 
      Law and Values and Distinguished University Professor, 
      University of Toledo, Toledo, OH...........................    13
        Prepared statement of....................................    15
    Whitaker, Ms. Tina Y., United Teachers of Dade, Homestead, 
      Florida....................................................     8
        Prepared statement of....................................    11

Additional Submissions:
    Chairwoman Wilson:
        Letter dated June 25, 2019 from Service Employees 
          International Union (SEIU).............................    85
        Letter dated June 25, 2019 from The Leadership Conference 
          on Civil and Human Rights..............................    86
        Letter dated June 25, 2019 from International Federation 
          of Professional and Technical Engineers AFL-CIO and CLC    88
        Prepared statement from the National Association of 
          Police Organizations, Inc..............................    90
        Prepared statement from Hirono, Hon. Mazie K.............    93
        Questions submitted for the record 

    Responses to questions submitted for the record by:
        Mr. Brewer...............................................   106
        Mr. Paterson.............................................   108
        Dr. Slater...............................................   117

 
                     STANDING WITH PUBLIC SERVANTS:
                    PROTECTING THE RIGHT TO ORGANIZE
                    
                               ----------                              


                        Wednesday, June 26, 2019

                       House of Representatives,

                  Subcommittee on Health, Employment,

                          Labor, and Pensions,

                   Committee on Education and Labor,

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2175, Rayburn House Office Building, Hon. Frederica Wilson 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Wilson, Norcross, Morelle, McBath, 
Underwood, Stevens, Courtney, Fudge, Harder, Shalala, Levin, 
Trahan, Scott (ex officio), Walberg, Roe, Allen, Banks, Taylor, 
Watkins, Wright, Meuser, Johnson, and Foxx (ex officio).
    Also present: Representatives Kildee, Finkenauer, 
Fitzpatrick, and Cline.
    Staff present: Tylease Alli, Chief Clerk; Ilana Brunner, 
General Counsel; David Dailey, Senior Counsel; Kyle DeCant, 
Labor Policy Counsel; Emma Eatman, Press Assistant; Mishawn 
Freeman, Staff Assistant; Eli Hovland, Staff Assistant; 
Stephanie Lalle, Deputy Communications Director; Jaria Martin, 
Clerk/Assistant to the Staff Director; Kevin McDermott, Senior 
Labor Policy Advisor; Richard Miller, Director of Labor Policy; 
Max Moore, Office Aide; Veronique Pluviose, Staff Director; 
Banyon Vassar, Deputy Director of Information Technology; 
Katelyn Walker, Counsel; Joshua Weisz, Communications Director; 
Cyrus Artz, Minority Parliamentarian; Courtney Butcher, 
Minority Director of Coalitions and Member Services; Akash 
Chougule, Minority Professional Staff Member; Cate Dillon, 
Minority Staff Assistant; Rob Green, Minority Director of 
Workforce Policy; Bridget Handy, Minority Communications 
Assistant; John Martin, Minority Workforce Policy Counsel; 
Hannah Matesic, Minority Director of Operations; Carlton 
Norwood, Minority Press Secretary; Brandon Renz, Minority Staff 
Director; and Ben Ridder, Minority Legislative Assistant.
    Chairwoman Wilson. The Subcommittee on Health, Employment, 
Labor, and Pensions will come to order.
    Welcome, everyone. I note that a quorum is present.
    I note for the subcommittee that Congressman Dan Kildee of 
Michigan, Congresswoman Abby Finkenauer of Iowa, Congressman 
Brian Fitzpatrick of Pennsylvania, and Congressman Ben Cline of 
Virginia will be participating in today's hearing, with the 
understanding that the questions will come only after all 
members of the HELP Subcommittee and any members of the full 
committee on both sides of the aisle who are present have had 
an opportunity to question the witnesses.
    The subcommittee is meeting today in a legislative hearing 
to receive testimony on ``Standing with Public Servants: 
Protecting the Right to Organize.''
    Pursuant to committee rule 7(c), opening statements are 
limited to the chair and the ranking member. This allows us to 
hear from our witnesses sooner and provides all members with 
adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Today, we are gathered for a legislative hearing to receive 
testimony on the status of public-sector collective bargaining 
and the legislative proposals which ensure State and local 
government employees can exercise this right.
    Labor unions have empowered generations of workers to 
secure better wages and working conditions. They have been 
essential to reducing income inequality. Collective bargaining 
agreements are especially important in closing the gender and 
racial wage gaps because labor agreements ensure equal pay for 
comparably situated and educated individuals in the workplace.
    Based upon personal experience, I know the benefits unions 
provide for public employees. When I was a teacher in the 
Miami-Dade County Public Schools system, I was also a member of 
the United Teachers of Dade union. So I was very, very 
disappointed to see Florida pass H.B. 7055, which singles out 
teachers' unions, forcing them to conduct unnecessary elections 
in an effort to weaken teachers' ability to advocate for 
themselves.
    Public-sector union benefits also extend beyond union 
members to benefit nonunion members. Research shows that, since 
the 1930's, workers' ability to unionize has corresponded to 
lower income inequality.
    Despite these widely enjoyed benefits, the Federal 
Government does not ensure State and local government employees 
consistent organizing rights nationwide. What we do know is 
that as many as half of all nonunion workers would vote for a 
union if given the opportunity.
    As our witnesses will testify, State and local government 
employees face an inconsistent patchwork of State labor laws 
which leaves far too many public servants behind. And, in fact, 
four States lack any regulation for public employees' 
organizing rights, and many more have lackluster collective 
bargaining regulations which do not compel employers to 
negotiate with employees.
    To make matters worse, last year, in the Janus v. AFSCME 
decision, the Supreme Court ignored 4 decades of legal 
precedent and 23 State laws to sabotage public-sector unions. 
The Janus decision denies unions the right to collect fair-
share fees for services that they are legally required to 
provide, which fundamentally undermines public service workers' 
ability to collectively bargain.
    Congress has both the power and responsibility to protect 
the organizing and collective bargaining rights of all workers, 
no matter where they live or work. This Congress, two bills 
have been introduced--the Public Service Freedom to Negotiate 
Act of 2019, H.R. 3463; and the Public Safety Employer-Employee 
Cooperation Act, H.R. 1154--that will improve the lives of 
public-sector employees employed at the State and local levels.
    One legislative proposal that helps to protect public 
servants is the Public Service Freedom to Negotiate Act of 
2019, which guarantees public employees the right to negotiate 
and unionize for better working conditions.
    Specifically, the bill will create minimum standards for 
collective bargaining rights that all States must meet, while 
ensuring that States have flexibility in how that goal is 
effectuated.
    While the Public Service Freedom to Negotiate Act of 2019 
cannot correct the Supreme Court's misreading of the 
Constitution in Janus, it can lessen the consequences by 
strengthening the rights of public service workers.
    Another bill that will help public servants is the Public 
Safety Employer-Employee Cooperation Act, which similarly 
protects first responders' right to organize by setting minimum 
standards for collective bargaining.
    On June 20, 2007, this bill was reported out of this 
committee by a vote of 42 to 1. Let me repeat: This bill was 
reported out of the Education and Labor Committee by a vote of 
42 to 1. Then-Ranking Member Buck McKeon, whose portrait hangs 
on the wall to my right, supported this legislation.
    And when this bill came to the floor on July 17, 2007, it 
was considered under suspension of rules and passed by a vote 
of 314 to 97. Let me restate that point. It came to the floor 
with broad, bipartisan support, and it was deemed 
noncontroversial. And it passed with the support of over two-
thirds of the House of Representatives.
    This historical note is important because it reinforces the 
fact that backing up public employees' rights to collectively 
bargain has been a bipartisan endeavor in the not-too-distant 
past.
    These two bills reflect our commitment to ensuring that 
teachers can earn decent pay, police officers and firefighters 
are compensated for their service, and public service workers 
can continue to fulfill their vital roles in communities across 
the country. The people who keep our communities safe, teach 
our children, and risk their lives to save ours deserve the 
same respect and protections as those employed in private 
industry.
    I look forward to hearing from our witnesses today and the 
discussion that will ensue.
    I now recognize the ranking member, Mr. Walberg, for an 
opening statement.
    Mr. Walberg, the esteemed Mr. Walberg, our ranking member.
    [The statement of Ms. Wilson follows:]

      Prepared Statement of Hon. Frederica S. Wilson, Chairwoman, 
        Subcommittee on Health, Employment, Labor, and Pensions

    Today, we are gathered for a legislative hearing to receive 
testimony on the status of public sector collective bargaining and the 
legislative proposals which ensure State and local government employees 
can exercise this right. Labor unions have empowered generations of 
workers to secure better wages and working conditions. They have been 
essential to reducing income inequality.
    Collective bargaining agreements are especially important in 
closing the gender and racial wage gaps, because labor agreements 
ensure equal pay for comparably situated individuals in the workplace. 
Based upon personal experience, I know the benefits unions provide for 
public employees. When I was a teacher in the Miami-Dade County Public 
Schools system I was also a member of the United Teachers of Dade 
union. So, I was very disappointed to see Florida pass H.B. 7055, which 
singles out teachers' unions, forcing them to conduct unnecessary 
elections in an effort to weaken teachers' ability to advocate for 
themselves.
    Public sector union benefits extend beyond union members and also 
benefit non-union members. Research shows that, since the 1930's, 
workers' ability to unionize has corresponded to lower income 
inequality. Despite these widely enjoyed benefits, the Federal 
Government does not ensure State and local government employees' 
consistent organizing rights nationwide. What we do know is that as 
many as half of all non-union workers would vote for a union if given 
the opportunity.
    As our witnesses will testify, State and local government employees 
face an inconsistent patchwork of State labor laws that leaves far too 
many public servants behind. In fact, four States lack any regulation 
for public employees' organizing rights and many more have lackluster 
collective bargaining regulations that do not compel employers to 
negotiate with employees.
    To make matters worse, last year in the Janus v. AFSCME (AFF-SSS-
MEE) decision, the Supreme Court ignored four decades of legal 
precedent and 23 State laws to sabotage public sector unions. The Janus 
decision denies unions the right to collect ``fair share fees'' for 
services they are legally required to provide, which fundamentally 
undermines public service workers' ability to collectively bargain. 
Congress has both the power and the responsibility to protect the 
organizing and collective bargaining rights of all workers--no matter 
where they live or work.
    This Congress two bills have been introduced, the Public Service 
Freedom to Negotiate Act of 2019 (H.R. 3463) and the Public Safety 
Employer-Employee Cooperation Act (H.R. 1154), that will improve the 
lives of public sector workers employed at the State and local levels.
    One legislative proposal that helps to protect public servants is 
legislative proposals like the Public Service Freedom to Negotiate Act 
of 2019, which guarantees public employees the right to unionize and 
negotiate for better working conditions.
    Specifically, the bill will create minimum standards for collective 
bargaining rights that all States must meet, while ensuring that States 
have flexibility in how that goal is effectuated.
    While the Public Service Freedom to Negotiate Act of 2019 cannot 
correct the Supreme Court's misreading of the Constitution in Janus, it 
can lessen its consequences by strengthening the rights of public 
sector workers.
    Another bill that will help public servants is the Public Safety 
Employer-Employee Cooperation Act, which similarly protects first 
responders' right to organize by setting minimum standards for 
collective bargaining. On June 20, 2007, this bill was reported out of 
this Committee by a vote of 42 to 1. Let me repeat that point: this 
bill reported out of the Education and Labor Committee by a vote of 42 
to 1.
    Then Ranking Member Buck McKeon, whose portrait hangs on the wall 
to my right, supported this legislation. And when this bill came to the 
floor on July 17, 2007, it was considered under suspension of rules and 
passed by a vote of 314 to 97.
    Let me restate that point. It came to the floor with such broad, 
bipartisan support that it was deemed non-controversial and it passed 
with the support of over two-thirds of the House of Representatives. 
This historical note is important because it reinforces the fact that 
backing up public employees' right to collectively bargain has been a 
bipartisan endeavor in the not too distant past.
    These two bills reflect our commitment to ensuring that teachers 
can earn decent pay, police officers and firefighters are compensated 
for their service, and public service workers can continue to fulfill 
their vital roles in communities across the country.
    The people who keep our streets clean, teach our children, and risk 
their lives to save ours, deserve the same respect and protections as 
those employed in private industry. I look forward to hearing from out 
witnesses today and the discussion that will ensue.
    I now recognize the Ranking Member, Mr. Walberg, for an opening 
statement.
                                 ______
                                 
    Mr. Walberg. Well, thank you, my friend and chairwoman, for 
yielding to me on this beautiful day.
    And those in the audience don't have the opportunity, 
unless you turn your head, to see how beautiful it is around 
Washington, DC. And as we get into this debate, I hope we 
remember that things are still pretty good. But this is a 
debate worth having.
    The two pieces of legislation we are here to discuss today 
are, I believe, another Democrat attempt to put the thumb on 
the scale in favor of forced unionization. And they also show 
no regard for the system of federalism on which this Nation was 
founded.
    H.R. 1154, the Public Safety Employer-Employee Cooperation 
Act, and the Public Service Freedom to Negotiate Act, disregard 
the will of the voters in every State by imposing a one-size-
fits-all labor relations mandate enforced by Federal 
bureaucrats in Washington, DC. If there is one thing this 
country doesn't need, it is more Federal overreach. We can be 
better than that, and, as policymakers, shame on us if we are 
not.
    The Founding Fathers spent countless critical hours in 
debate--and they did debate--deliberating a system of checks 
and balances that would ensure that individual States were not 
unreasonably controlled by the Federal Government. That is our 
foundation.
    Today, States have legitimate concerns with public-sector 
collective bargaining, which is why even union-dominated States 
place some limitations on this practice.
    Rather than impose its will on individual States, Congress 
should respect these differences of opinion among the States 
and allow them to remain laboratories, as it were--especially 
as we talk about education and labor--laboratories of democracy 
in determining their own public employee labor law.
    We should all know by now that government unions create 
perverse incentives that do not exist in the private sector. 
They can't exist in the private sector. Government unions are 
an enormously powerful political force.
    While all Americans are free to join together, and should 
be--this side of the aisle would not reject that--free to join 
together and engage in the political process, government unions 
can essentially elect their own employer--in other words, 
Governors and State and local lawmakers--with whom they 
negotiate collective bargaining agreements.
    These practices often force exorbitant, seemingly unlimited 
cost on the taxpayers, the people who pay the bill and expect 
the service, an unfortunate circumstance which is markedly 
different than negotiating with companies over the use of 
inherently limited profits, as private-sector unions do.
    Moreover, when government unions strike, it imposes 
undeserved hardship on the American people, the people we 
serve, allegedly, by depriving basic public services they 
expect and they paid for in their taxes from State or local 
government.
    It is for these reasons that, historically, lawmakers on 
both ends of the spectrum have steered clear of instituting 
collective bargaining in government. Even President Franklin 
Delano Roosevelt and George Meany, former president of the AFL-
CIO, opposed collective bargaining in government. That is 
historic.
    Imposing collective bargaining on State and local 
governments will likely result in a massive unfunded mandate on 
taxpayers. Congress should therefore appropriately leave these 
decisions to States, as our predecessors have done.
    Not only do these bills undermine our Nation's system of 
federalism, they are another attempt by committee Democrats to 
advance union special interests at the expense of workers. 
Democrats' top labor priority is H.R. 2474, the Protecting the 
Right to Organize Act, or the PRO Act, which deprives private-
sector workers of important workplace rights while giving labor 
unions almost unlimited power to impose economic harm on 
unsuspecting businesses.
    I bring up H.R. 2474 not only to demonstrate where 
committee Democrats' priorities lie, I believe, but also to 
show that the goal of the Democrats is to promote forced 
unionization throughout both the public and private sectors.
    Exactly 1 year ago, the Supreme Court in Janus v. AFSCME 
ruled that no public employee should be forced to pay union 
dues as a condition of employment. I believe they ruled 
constitutionally. Forced dues in government are particularly 
egregious because collective bargaining impacts public policy 
and is, thus, inherently political speech.
    Rather than undermine these rights for public-and private-
sector workers alike, this committee should focus on issues 
where we actually have jurisdiction, including protecting the 
rights of workers covered by the National Labor Relations Act.
    Private-sector workers should be allowed to make workplace 
decisions for themselves, like the choice to join and pay a 
union or not, share personal information with a union 
organizer, or vote for a union in a secret ballot election. At 
the same time, States should be free to determine public 
employee labor laws for themselves without needless 
intervention from the Federal Government.
    This I believe strongly, and this, Madam Chairwoman, we 
will debate today. It is a good debate.
    And I thank you for allowing me this opportunity, and I 
yield back.
    [The statement of Mr. Walberg follows:]

Prepared Statement of Hon. Tim Walberg, Ranking Member, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Thank you for yielding.
    The two pieces of legislation we're here to discuss today are 
another Democrat attempt to put the thumb on the scale in favor of 
forced unionization and they also show no regard for the system of 
federalism on which this Nation was founded.
    H.R. 1154, the Public Safety Employer-Employee Cooperation Act, and 
the Public Service Freedom to Negotiate Act disregard the will of the 
voters in every State by imposing a one-size-fits-all labor relations 
mandate enforced by Federal bureaucrats in Washington. If there's one 
thing this country doesn't need, it's more Federal overreach. We can be 
better than that, and as policymakers, shame on us if we're not.
    The founding fathers spent countless, critical hours in debate, 
deliberating a system of checks and balances that would ensure that 
individual States were not unreasonably controlled by the Federal 
Government. Today, States have legitimate concerns with public sector 
collective bargaining, which is why even union-dominated States place 
some limitations on the practice. Rather than impose its will on 
individual States, Congress should respect these differences of opinion 
among the States and allow them to remain ``laboratories of democracy'' 
in determining their own public employee labor laws.
    We should all know by now that government unions create perverse 
incentives that do not exist in the private sector. Government unions 
are an enormously powerful political force. While all Americans are 
free to join together and engage in the political process, government 
unions can essentially elect their own employer in other words, 
Governors and State and local lawmakers with whom they negotiate 
collective bargaining agreements. These practices often force 
exorbitant, seemingly unlimited costs onto taxpayers, an unfortunate 
circumstance which is markedly different than negotiating with 
companies over the use of inherently limited profits, as private-sector 
unions do. Moreover, when government unions strike, it imposes 
undeserved hardship on the American people by depriving basic public 
services they expect from their State or local government.
    It is for these reasons that historically, lawmakers on both ends 
of the spectrum have steered clear of instituting collective bargaining 
in government. Even President Franklin Roosevelt and George Meany, 
former president of the AFL-CIO, opposed collective bargaining in 
government.
    Imposing collective bargaining on State and local governments will 
likely result in a massive unfunded mandate on taxpayers. Congress 
should therefore appropriately leave these decisions to States as our 
predecessors have done.
    Not only do these bills undermine our Nation's system of 
federalism, they are another attempt by Committee Democrats to advance 
union special interests at the expense of workers.
    Democrats' top labor priority is H.R. 2474, the Protecting the 
Right to Organize Act, which deprives private sector workers of 
important workplace rights while giving labor unions almost unlimited 
power to impose economic harm on unsuspecting businesses.
    I bring up H.R. 2474 not only to demonstrate where Committee 
Democrats' priorities lie, but also to show that the goal of the 
Democrats is to promote forced unionization throughout both the public 
and private sectors.
    Exactly 1 year ago, the Supreme Court in Janus v. AFSCME ruled that 
no public employee should be forced to pay union dues as a condition of 
employment. Forced dues in government are particularly egregious, 
because collective bargaining impacts public policy and is thus 
inherently political speech.
    Rather than undermine these rights for public and private sector 
workers alike, this Committee should focus on issues where we actually 
have jurisdiction, including protecting the rights of workers covered 
by the National Labor Relations Act. Private sector workers should be 
allowed to make workplace decisions for themselves, like the choice to 
join and pay a union or not, share personal information with a union 
organizer, or vote for a union in a secret ballot election. At the same 
time, States should be free to determine public-employee labor laws for 
themselves, without needless intervention from the Federal Government.
    Thank you, I yield back.
                                 ______
                                 
    Chairwoman Wilson. Without objection, all other members who 
wish to insert written statements into the record may do so by 
submitting them to the committee clerk electronically in 
Microsoft Word format by 5 o'clock p.m. on July 9, 2019.
    I will now introduce the witnesses.
    Ms. Tina Whitaker--Ms. Tina--is a social studies teacher 
from Miami, Florida. I am so pleased to see Ms. Tina Whitaker 
on today's panel because she is a current public school teacher 
in Miami-Dade County, my hometown, and a member of the United 
Teachers of Dade. I was glad she was able to accept my 
invitation to testify today.
    I also want to welcome Ms. Karla Hernandez, who is the 
president of the United Teachers of Dade County. She is with us 
in the audience.
    Our next witness is Dr. Joseph Slater. He is the Eugene N. 
Balk Professor of Law and Values at the University of Toledo 
School of Law.
    Welcome.
    Mr. Bob Onder is a State senator from Missouri, 
representing Missouri's District Two.
    Thank you for coming.
    Mr. Tom Brewer is the president of the Professional Fire 
Fighters and Paramedics of North Carolina in Charlotte, North 
Carolina.
    Mr. Brewer, thank you.
    Mr. William Messenger is an attorney with the National 
Right to Work Legal Defense Foundation in Springfield, 
Virginia.
    Welcome.
    Mr. Teague Paterson is a deputy general counsel of the 
American Federation of State, County, and Municipal Employees 
in Washington, DC.
    Thank you for coming.
    We really appreciate all of the witnesses for being here 
today, and we look forward to your testimony.
    Let me remind the witnesses that we have read your written 
statements and they will appear in full in the hearing record. 
Pursuant to committee rule and committee practice, each of you 
is asked to limit your oral presentation to a 5-minute summary 
of your written statement.
    Let me also remind the witnesses that, pursuant to title 18 
of the U.S. Code, section 101, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the members can hear you.
    As you begin to speak, the light in front of you will turn 
green. After 4 minutes, the light will then turn yellow to 
signal that you have 1 minute remaining. When the light turns 
red, your 5 minutes have expired, and we ask that you please 
wrap it up so I won't have to gavel you, because I will.
    We will let the entire panel make their presentations 
before we move to member questions.
    Remember, when answering a question, please remember to 
once again turn your microphone on.
    I will first recognize Ms. Whitaker.

    STATEMENT OF TINA Y. WHITAKER, UNITED TEACHERS OF DADE, 
                       HOMESTEAD, FLORIDA

    Ms. Whitaker. Good morning, Chairman Scott and Ranking 
Member Foxx. I would like to thank Chairwoman Wilson and 
Ranking Member Walberg for the opportunity to testify before 
this subcommittee.
    My name is Tina Whitaker. I am a veteran teacher of 21 
years in Miami-Dade County public schools, Florida, and a proud 
member of United Teachers of Dade. I teach social studies at 
Arthur & Polly Mays 6-through-12 Conservatory of the Arts.
    I began my teaching career in May 1995 as a substitute 
teacher in Scotland Neck, North Carolina, at Brawley Middle 
School. Scotland Neck is in Halifax County, North Carolina, and 
is currently ranked 90th in per capita income in the State. I 
was excited not only was I giving back to the community in 
which I was raised, but I had the opportunity to work with 
teachers who had nurtured me as a student.
    At the beginning of the following school year, I began 
teaching North Carolina history and language arts to seventh-
graders. Still excited, I decorated my class for the new 
adventure with the help of those same teachers who were now my 
mentors.
    After the completion of a successful year, unfortunately, I 
was released from my teaching duties because I was told that I 
had not fulfilled my obligation of getting my certification 
within 2 years of employment. A month of being a substitute 
teacher and 1 full year does not calculate to working for 2 
years, but I had no one to advocate on my behalf since there 
was not a union I could belong to in North Carolina. I realized 
that I would have to navigate those waters alone.
    I drove to Raleigh, North Carolina, and pleaded my case to 
the North Carolina Department of Education. With hope in my 
heart, I proceeded to go back to the human resources department 
at the Halifax County School Board. I had no one to advocate on 
my behalf. I had no union, no professional organization that 
could fight for me.
    Here I was, a product of the community and the county 
school system who had beat the odds, but could not get anyone 
to listen to my pleas. I wanted the students that lived in my 
community to see that you can go off to college, get your 
degree, and come back home and serve the community in which you 
lived. I went from sadness and embarrassment to anger. I was 
angry because I was let go unfairly and those who could help me 
did not.
    I was able eventually to find an educational lawyer that 
took my case pro bono. Months later, I moved to Miami, Florida, 
and started the process of gaining employment as a substitute 
teacher and eventually an educator in Miami-Dade County Public 
Schools system.
    From my experiences in North Carolina, I learned what 
happens when you don't have someone to advocate for you. 
Therefore, I did not hesitate to join UTD after I became a 
teacher. This union has helped me reach my full potential. 
After coming from a place where my dreams were stifled and 
where I was unable to help my community, I found my voice in 
Miami because of a union that has helped me not only become a 
better educator but a better professional.
    UTD has afforded me opportunities that I otherwise would 
not have had. The PD I have taken part in has given me tools 
provided that I was chosen as Teacher of the Year and Social 
Studies Teacher of the Year.
    We are not just a union within the walls of our school 
building. We participate in advocacy and activism.
    With all that we do in our community, we have still had to 
organize to combat bad legislation that adversely affects our 
students and our work force. Yes, bad legislation does trickle 
down into our classrooms. When bad legislation is passed, it 
affects the morale and district funding which provide for 
smaller classes, more mental and educational services, and 
teacher salaries.
    You must walk your talk. Your message must be one of 
bringing togetherness in our communities. Healthy work forces 
and bargaining capability build strong and active communities, 
and strong communities build stronger economies.
    I am Tina Whitaker, and as a proud public school teacher 
and union member, I want public school teachers around the 
country to have a right to collectively bargain. I hope that 
Congress will soon pass this important legislation.
    Again, thank you for this opportunity, and I look forward 
to answering your questions.
    [The statement of Ms. Whitaker follows:]
    [GRAPHIC] [TIFF OMITTED] T7318.001
    
    [GRAPHIC] [TIFF OMITTED] T7318.002
    
    Chairwoman Wilson. Thank you so much, Ms. Whitaker.
    We will now recognize Dr. Slater.

    STATEMENT OF JOSEPH SLATER, J.D., PH.D., EUGENE N. BALK 
   PROFESSOR OF LAW AND VALUES AND DISTINGUISHED UNIVERSITY 
         PROFESSOR, UNIVERSITY OF TOLEDO, TOLEDO, OHIO

    Mr. Slater. Madam Chair Wilson, Ranking Member Walberg, and 
members of the committee, thank you for the opportunity to 
testify today.
    My name is Joseph Slater. I am a distinguished university 
professor at the University of Toledo. And I am here to give 
some background about how public-sector labor laws work and 
have worked in the U.S. and explain why I support the Public 
Service Freedom to Negotiate Act and the Public Safety 
Employer-Employee Cooperation Act.
    First, the U.S. is very different than other comparable 
countries. In other industrialized nations, public-sector 
unions and private-sector unions have essentially the same 
rights. In the U.S., while private-sector workers won the right 
to bargain collectively in 1935 with the National Labor 
Relations Act, public-sector unions did not begin to win 
collective bargaining rights until the 1960's. And, even today, 
8 States do not permit any public employees to bargain 
collectively, and about another 12 States only allow 1 to 2 
types of public employees to bargain collectively. Meanwhile, 
international law views collective bargaining as a fundamental 
human right.
    Second, public-sector labor law is out of step with other 
employment laws in the U.S. Many employment laws, many Federal 
employment laws, in the U.S. cover public employees as well as 
private employees. The wages and working conditions of public 
employees affect commerce, which is why Congress has the power, 
for example, to apply the Fair Labor Standards Act to public 
employees as well as private employees.
    Third, objections to public-sector collective bargaining 
have been largely disproven by experience. One old objection 
was that public officials would, for political reasons, cave to 
union demands. Experience has shown that is not true. This is 
partly because there are strong political pressures to the 
contrary. The general public wants good public services, but it 
also wants low costs for those services, and at the voting 
booth the general public tends to swamp public employees. There 
are also powerful and well-funded groups opposing public 
employee interests, such as anti-tax groups and anti-union 
groups. Meanwhile, public employees have legitimate interests 
as employees, just as private employees do, that need 
protection.
    Further, public-sector collective bargaining rights 
generally do not have any significant negative impact on public 
budgets. Public employees are not overpaid compared to 
comparable private-sector workers. The vast majority of studies 
on the issue have shown that, if anything, public employees are 
paid somewhat less than their comparable private-sector 
counterparts.
    Relatedly, there is no correlation between State budget 
deficits in States that grant collective bargaining rights to 
public employees. Researchers from UC-Berkeley found, quote, 
``no statistically significant correlation between union 
density, union strength, and the size of State budgets.'' As 
Congressman Mike Quigley once observed, States allowing public-
sector collective bargaining, on average, have a 14 percent 
budget deficit, while States that bar collective bargaining 
have, on average, a 16.5 percent deficit.
    Fourth, public-sector collective bargaining laws do a lot 
of good. They promote labor peace, reducing the number of 
illegal public-sector strikes. When my State of Ohio passed its 
public-sector law in the early 1980's, the number of strikes in 
the public-sector decreased dramatically. This was despite the 
fact that the Ohio law not only allowed collective bargaining 
rights for public employees but it allowed some public 
employees to strike under some circumstances. But yet the 
number of strikes went down. The same thing happened when 
Illinois passed its collective bargaining law in the 1980's.
    The reason this happens is because given bargaining rights 
to workers and effective alternatives to strikes means workers 
don't have to use illegal strikes as their only option to 
address their concerns. Indeed, a leading study found that 
public-sector strikes were most likely to occur in States that 
did not allow collective bargaining for public employees. For 
example, the teachers' strikes in 2018 took place in six 
States, none of which permitted collective bargaining by 
teachers.
    Fifth, collective bargaining rights help with retention and 
recruitment of employees. We should encourage talented people 
to go into the public service and stay there. Opponents of 
collective bargaining rights of unions often make arguments 
about corporate executive pay along the lines of, well, you 
need to pay these people a lot of money to get good people in 
the jobs and keep them there. Well, that is also true; we need 
to have good pay and benefits if we want talented people in the 
public service, if we want good teachers, firefighters, and 
police officers.
    Sixth, a number of studies show that unions increase 
efficiency and productivity. This is because union members know 
how to do their jobs. A series of studies demonstrate that.
    Finally, unions help the economy as a whole, in part 
because they help bolster the middle class. Collective 
bargaining has historically served to increase consumer 
purchasing power, assure a voice in the work force, and provide 
checks and balances in society.
    For these reasons, I support the Public Service Freedom to 
Negotiate Act.
    Thank you very much.
    [The statement of Mr. Slater follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Dr. Slater.
    We will now recognize Mr. Onder, our State senator.

    STATEMENT OF THE HONORABLE ROBERT F. ONDER, M.D., STATE 
  SENATOR, MISSOURI GENERAL ASSEMBLY, JEFFERSON CITY, MISSOURI

    Dr. Onder. Thank you.
    Chairwoman Wilson, Ranking Member Walberg, members of the 
committee, for the record, I am Bob Onder, State senator 
representing Missouri's Second Senatorial District. Thank you 
for the opportunity to testify today.
    I was elected to the Missouri Senate in 2014, and, since 
then, I have chaired the committee that has handled most of 
Missouri's labor bills, including Missouri's Government Worker 
Protection Act, House Bill 1413, a comprehensive labor reform 
bill signed into law last year.
    Today, I appear before you to testify in favor of the 
rights of States and their political subdivisions to set their 
own public-sector labor policies, and, as such, I testify in 
opposition to the two bills before you today.
    Private-sector collective bargaining has been governed by 
Federal law since President Franklin Roosevelt signed the 
Wagner Act in 1935. Congress has long recognized the 
distinction between public-sector collective bargaining and the 
private sector and has allowed States and local governments, 
accordingly, to set their own laws, their own policies in the 
latter.
    FDR himself recognized this distinction when he Stated, 
``All government employees should recognize that the process of 
collective bargaining, as usually understood, cannot be 
transplanted into the public service.''
    It is important to recognize, as did your predecessors, the 
fundamental differences between government and private-sector 
unions.
    In the private sector, employers are private companies or 
individuals. Government and, by extension, the people are the 
employers of public-sector employees.
    Government unions through aggressive political activity 
often end up electing their own bosses, potentially leading to 
conflicts between the interests of citizens and taxpayers and 
that of the unions.
    In the private sector, there are natural checks and 
balances on the power of unions. If union demands make a 
company uncompetitive, everyone suffers. Witness the U.S. auto 
industry. These checks and balances are lacking with government 
unions.
    If we look at States with the worst fiscal conditions and 
the highest taxes, such as Illinois, New Jersey, Connecticut, 
what they all have in common is very strong government unions.
    I believe that if there is one thing we can agree on here, 
it is that different States have very different approaches to 
labor policies--for example, whether collective bargaining is 
allowed for police, firefighters, and teachers. Most allow it. 
Some mandate it, some ban it, and some allow it to be decided 
at the local level. And whether these workers should be allowed 
to strike.
    These varying policies have evolved over decades. Missouri 
has allowed public-sector collective bargaining since 1965. And 
since then, policy has been modified from time to time by 
statute, by decisions of two government agencies, and by 
hundreds of political subdivisions.
    Congress has no business centralizing all of this power in 
the Federal Labor Relations Authority. It would be an enormous 
Federal overreach and a violation of the principle of 
federalism to do so. And it would also require a massive 
expansion of the Federal Labor Relations Authority to 
micromanage labor policy in 50 States and thousands of 
political subdivision across our country.
    Finally, Federalization of public-sector labor law would 
preclude reform measures that protect both workers and 
taxpayers. Examples of such reforms include the provisions of 
House Bill 1413 passed in Missouri last year. With this bill, 
we codified the certification process; we gave workers the 
right to vote every 3 years as to whether they wanted to 
continue to be represented by a union; gave the workers the 
right to annually opt in or out of financial payment to unions; 
and promoted financial transparency similar to Federal LM 
reporting. These protections would be nullified by Federal 
legislation.
    Alexander Hamilton wrote in Federalist No. 9 that the 
proposed Constitution ``leaves to States' possession certain 
exclusive and very important portions of sovereign power.'' Our 
current system of State control of public-sector labor 
relations allows States to use that sovereign power to balance 
the interests of public employees and unions, citizens, and 
taxpayers.
    I urge this committee to reject Federal takeover of these 
very important State functions.
    Thank you.
    [The statement of Dr. Onder follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Mr. Onder.
    We will now recognize Mr. Brewer.

 STATEMENT OF TOM BREWER, PRESIDENT, CHARLOTTE NORTH CAROLINA 
   FIRE FIGHTERS LOCAL 660 AND NORTH CAROLINA FIREFIGHTERS' 
            ASSOCIATION, MOORESVILLE, NORTH CAROLINA

    Mr. Brewer. Good morning, Chairwoman Wilson, Ranking Member 
Walberg, and distinguished members of the subcommittee. My name 
is Tom Brewer, and I am the president of the Professional Fire 
Fighters and Paramedics of North Carolina.
    I appear before you today on behalf of the International 
Association of Fire Fighters, our general president, Harold 
Schaitberger, and the over 316,000 professional firefighters 
and emergency medical personnel who comprise our union.
    I began my career in public service nearly 23 years ago, 
and today I serve the citizens of Charlotte, North Carolina, as 
a frontline firefighter and captain. I also serve as the 
president of my local union, IAFF Local 660. My coworkers and I 
strive every day to protect our community and its citizens.
    At its core, the right to organize and collectively bargain 
is about establishing a mechanism to enable labor and 
management to work together for their mutual benefit.
    In States and localities with strong laws, collective 
bargaining has produced measurable improvements in training, 
staffing, equipment, and health and safety, resulting in 
improved local emergency response capabilities, safer 
communities, and safer firefighters.
    The people that we serve expect the very best from their 
firefighters, and we work hard every day to meet these 
expectations. But, many times, we are being asked to do our 
jobs with one hand tied behind our backs, because, even as 
highly trained experts, we cannot consistently convey basic 
workplace needs to our employers.
    Today's fire service operates on multiple governmental 
levels. Firefighters regularly respond beyond their own 
jurisdictions to incidents involving hazardous materials, 
active shooters, wildland fires, and other local and national 
security threats, all of which can impact communities not just 
throughout a State but across a region.
    Fire departments must work together in partnership to meet 
threats facing communities. Without an effective local 
response, homeland security is almost inevitably impaired. The 
Federal Government, therefore, has a responsibility to ensure 
that emergency response at the local level is as effective as 
possible.
    As public-sector workers, we are banned in my home State 
from collective bargaining. This means we cannot meet with our 
employer in a good-faith structured exchange. Instead, we plead 
with our local governments to try and get what we need to do 
our jobs effectively.
    As a result, both workers and communities experience 
inadequate protections. There are many communities in North 
Carolina where fire apparatus are dangerously understaffed. 
When responding to a fire, they must literally wait until a 
second apparatus arrives before engaging in suppression 
activities.
    Understaffing also hinders responses to other incidents 
such as car accidents, where insufficient personnel slows 
extrication duties and lifesaving procedures such as CPR. This 
not only endangers firefighters but it puts citizens at risk.
    Time and time again, firefighters in these communities have 
asked their city councils to increase staffing to meet these 
necessary safety standards, and time and time again they have 
been shut out. With collective bargaining, both parties would 
have a structured process that would allow for this necessary 
conversation to occur, helping fix this serious public safety 
problem.
    Consider my hometown of Charlotte. For the past 20 years, 
we have pleaded with the city to provide us with firefighter 
physicals, including cancer screenings. Finally, after years of 
dead-end requests, the city relented, and this is the first 
year they are being administered. Had we been able to sit down 
with our employer and present our case, how many dollars and, 
more importantly, how many lives may have been saved?
    Thankfully, there is a solution. The Public Safety 
Employer-Employee Cooperation Act will provide a basic set of 
collective bargaining rights for firefighters and other public 
safety workers while protecting the rights of States that 
currently provide these protections.
    Collective bargaining is overwhelmingly used as a mechanism 
to enable labor and management to work together for their 
mutual benefit. The Cooperation Act represents a conversation 
between public safety employers and employees--a process, not 
an outcome.
    Nowhere is this relationship more important than when lives 
and property are at stake. Having a voice in the workplace is a 
fundamental right for firefighters, just as the public has a 
fundamental right to rely on effective emergency services.
    In conclusion, when workers have a meaningful role and 
effective voice in the decisionmaking process, everyone is 
better off: Firefighters are safer, and communities are safer.
    Thank you, and I will be happy to answer any of your 
questions.
    [The statement of Mr. Brewer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Mr. Brewer.
    We will now recognize Mr. Messenger.

   STATEMENT OF WILLIAM L. MESSENGER, J.D., STAFF ATTORNEY, 
 NATIONAL RIGHT TO WORK LEGAL DEFENSE FOUNDATION, SPRINGFIELD, 
                            VIRGINIA

    Mr. Messenger. Chairwoman Wilson, Ranking Member Walberg, 
members of the subcommittee, thank you for the opportunity to 
appear before you today.
    I practice labor and constitutional law for the National 
Right to Work Legal Defense Foundation, advocating for 
individual employees in both the private sector and the public 
sector. And that includes representing Mark Janus in his case, 
Janus v. AFSCME, before the U.S. Supreme Court.
    In Janus, the Supreme Court held it was unconstitutional 
under the First Amendment for the government to compel 
employees to subsidize a union's speech without their consent. 
As a result of Janus, an estimated 5 million public employees 
were freed from forced fee requirements and now have the right 
to choose whether or not to support a union.
    But while public-sector workers now enjoy this freedom, 
many private-sector workers do not. In particular, those 
private-sector workers not fortunate enough to work in the 
Nation's 27 right-to-work States can still be forced to support 
a union against their will even though their public-sector 
brethren cannot.
    Now, this inequity could be rectified by Congress passing 
the National Right To Work Act, which would extend right-to-
work protections to all employees. With the National Right to 
Work Act, both public-sector employees and private-sector 
employees would enjoy the freedom to choose whether to support 
a union.
    Unfortunately, some propose to make an inequitable 
situation even worse by stripping private-sector employees who 
enjoy right-to-work protections of those protections. A prime 
example is the Protecting the Right to Organize Act, H.R. 2474, 
which will permit unions to force private-sector workers to pay 
compulsory fees notwithstanding State right-to-work laws to the 
contrary. That act represents a step backwards. In the wake of 
Congress, Congress should seek to expand worker freedoms, not 
to curtail them.
    But while Janus freed public-sector workers from forced fee 
requirements, many are still subject to forced representation 
requirements. Under monopoly bargaining laws, workers are 
required to accept a union as their exclusive representative 
for speaking and contracting with the government over certain 
public policies irrespective of whether the individual employee 
approves or not.
    In other words, the government is dictating who speaks for 
employees in their relations with government. And, as a result, 
the individual worker is stripped of his ability to speak for 
himself or through other associations of his or her choice.
    Now, the Supreme Court in Janus recognized that this form 
of government-compelled association ``substantially restricts 
non-members' rights'' and, quote, ``causes significant 
impingement on associational freedoms.''
    And, in fact, it turns the democratic process on its head. 
Under monopoly bargaining laws, instead of citizens choosing 
their representatives in government, the government is choosing 
representatives to speak for its citizens.
    Even Franklin Delano Roosevelt, who enacted the National 
Labor Relations Act, opposed public-sector monopoly bargaining.
    But, at a minimum, monopoly bargaining is a fundamentally 
flawed idea that Congress should leave up to the States of 
whether or not they should politically collectivize their own 
employees.
    Currently, State labor relations are governed not by 
Federal law but by State law. And some States, such as Virginia 
and North Carolina, do not allow monopoly bargaining at all. 
And several other States, after suffering the negative 
consequences of handing union officials too much artificial 
political power, have been moving to reform their laws. As 
these States are moving to correct the situation, Congress 
should stay out of the way and not make their job harder.
    And, in fact, the Tenth Amendment requires that Congress 
respect State sovereignty on this matter. Under the Tenth 
Amendment, the Federal Government cannot interfere with State 
governance by dictating both that States regiment their 
employees into mandatory advocacy groups and formulate their 
public policies based upon bargaining with those advocacy 
groups. Such interference with how States formulate their own 
public policies would violate basic principles of federalism 
and would not survive a legal challenge in the courts.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions you may have.
    [The statement of Mr. Messenger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Mr. Messenger.
    We will now recognize Mr. Paterson.

   STATEMENT OF TEAGUE P. PATERSON, DEPUTY GENERAL COUNSEL, 
                    AFSCME, WASHINGTON, D.C.


    Mr. Paterson. Thank you, Chairwoman Wilson, members of the 
committee. My name is Teague Paterson. I am deputy general 
counsel for the American Federation of State, County, and 
Municipal Employees, or AFSCME.
    I want to thank Chairwoman Wilson and Ranking Member 
Walberg for the opportunity to testify at this hearing. I also 
thank Congressman Cartwright and Senator Hirono for sponsoring 
the Public Service Freedom to Negotiate Act, and also Chairman 
Scott and the many other members of this committee for 
cosponsoring this important legislation.
    AFSCME members provide the vital services that make America 
happen. In major cities and in small towns across the United 
States, AFSCME members work in hundreds of occupations 
dedicated to serving the public, including in the fields of 
justice, education, healthcare, transportation, public works, 
and many, many others.
    Why do working people join unions? Simply so that they can 
productively address their working conditions, gain economic 
security, and improve the work they do for their communities.
    Notably, low-and middle-wage workers gain the most from 
unions, reducing economic inequality and gender and racial wage 
gaps, while also providing a means to address other forms of 
discrimination faced by women, people of color, LGBTQ-plus 
individuals, and the disabled.
    Public service unions also benefit communities. Union 
members use their collective voice to advocate for better 
public services, like ensuring that 911 call centers have the 
staff necessary to quickly answer calls and dispatch help and 
also to make sure that schools hire staff necessary for 
students to succeed.
    Surveys and experience show that unions are more popular 
than ever, and when public employees have a meaningful right to 
bargain, they are choosing to express that right by forming and 
joining unions. It is, in fact, a right that is guaranteed by 
the First Amendment of the United States Constitution.
    This bill is needed because, in many States and 
communities, public servants have been denied a meaningful 
opportunity to exercise this fundamental right. What is more, 
organized anti-union forces are working to further undermine 
unions, dismantling protections for public service workers who 
wish to exercise this important right. We have heard from some 
of them today.
    In fact, we just now heard from Mr. Onder regarding his 
bill in Missouri, H.B. 1413, which he described as a step 
forward. But, this past March, a Missouri judge issued an 
injunction halting that law. Here is how the judge described 
it, and I quote: ``a blatant attempt to subjugate employees to 
the whims and caprices of management, free from the obligation 
to act in good faith.''
    The judge also Stated it renders collective bargaining, 
quote, ``a farce,'' and it also, quote, ``impermissibly reaches 
deep into the mechanics of self-governance and dictates the 
terms and circumstances under which unions are permitted to 
express their political voice and opinion.''
    So it is laws like this in Missouri and other States that 
make this act necessary.
    The Public Service Freedom to Negotiate Act empowers the 
Federal Labor Relations Authority to protect the right of 
public service employees to join a union, to collectively 
bargain, to access dispute-resolution mechanisms, and to be 
free from the imposition of rigged recertification elections. 
And it is drafted with the powers, rights, and limitations 
granted by the Constitution in mind.
    Private-sector labor relations have been regulated under 
the NLRA for more than 80 years. Because public-sector 
employer-employee relations affect commerce in the same way and 
to the same degree as in the private sector, Congress assuredly 
has the authority to enact equivalent protections in the public 
sector.
    But this act does so in a way that ensures local control 
and does not go beyond the requirements of the Commerce Clause 
and is in keeping with principles of federalism. It guarantees 
that States can design their own solutions while completely 
exempting the smallest municipalities altogether. But for 
States that do not do that, it protects their rights of public 
service workers while providing a means to cooperatively and 
productively resolve disputes.
    In conclusion, this legislation will help level the playing 
field and ensure that dedicated public service employees can 
negotiate for fair wages, hours, and working conditions and 
improved public services for our communities.
    Thank you for this opportunity to testify. It is a 
privilege and honor to appear before this committee, and I am 
happy to answer any questions. Thank you.
    [The statement of Mr. Paterson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you so much, Mr. Paterson.
    And let me welcome again, all the way from Miami, Ms. Karla 
Hernandez-Mats, who is the president of the United Teachers of 
Dade. I am so happy that she is with us today.
    Under committee rule 8(a), we will now question witnesses 
under the 5-minute rule.
    I will now yield myself 5 minutes.
    Ms. Whitaker, in 2018, Florida passed House Bill 7055, an 
education bill containing a thinly veiled attack on teacher 
unions. The law represents a 180-degree reversal of Florida's 
past 50 years of public-sector collective bargaining law.
    In 1962, Florida interpreted its constitution to provide 
public employees with the right to join or refrain from joining 
an employee organization, like a labor union, without fear of 
losing their jobs. And in 1968, the constitution was rewritten 
to explicitly include a protection for public employees' 
collective bargaining rights.
    However, as of 2018, this right is being eroded by 
requiring teacher unions to report their dues-paying membership 
data to the State, data which is then being used to trigger 
elections if dues-paying membership is less than 50 percent. 
This reform makes no sense, creates no solution to any problem, 
and, instead, burdens teachers and their unions with 
unnecessary regulations.
    In your testimony, you describe the impacts of bad 
legislation on teacher morale. How has H.B. 7055 impacted you 
and your colleagues? And how are you and other teachers 
resisting this targeted attack?
    Ms. Whitaker. Thank you, Chairwoman Wilson.
    In our school buildings, our teachers are constantly 
worrying about whether or not our rights and privileges will be 
taken away. Our morale is already low because of the attack 
from our legislature, and once they started with the 
decertification bill, now everyone is on edge.
    It has taken our union away from lobbying for our children 
with our school board, making sure that the items that they 
pass benefit all students and not just top management. Also, 
this legislation has provided a way to eventually take the 
union out of the process.
    Not too long ago, they took away tenure for teachers. How 
can you ensure that you have an operating education system if 
you don't have tenure for teachers? New teachers are now coming 
into the system and not knowing whether or not they have a job 
from year to year, because each year they go back to being an 
annual contract teacher.
    So the morale has been very low. The funding has been low 
from our legislature. And teachers in our union are now--we are 
constantly fighting that battle. And it feels as if it is us 
against them, and that is not how it should be. We should be 
working together to resolve issues.
    Teachers should be at the table when legislation is 
proposed. And with United Teachers of Dade, they have been on 
the forefront because the teachers could not be there. We had 
to work. It was our responsibility to educate our children. 
That is what we are there for.
    And with our children in the buildings, they are worried 
now whether or not they are going have teachers from year to 
year, because there is a major shortage in the State of 
Florida. Right now, we are at 2,000. And if the teachers that 
are close to retirement, if they retire, that number will go 
higher.
    So that bill was basically put forth to further break 
United Teachers of Dade, I feel.
    Chairwoman Wilson. Thank you. Thank you.
    Mr. Paterson, your testimony mentioned some of the 
inconsistencies within the gamut of State laws that govern 
public employees' collective bargaining. I want you to tell us, 
how are these inconsistencies--how do they harm workers, and 
why is there a need for a Federal standard?
    Mr. Paterson. Thank you for that question.
    Look, some variation State by State is healthy, and we have 
that. But the problem is, where States do not provide for the 
effective or the meaningful exercise of the right to join a 
union and to collectively bargain is where this bill becomes 
necessary.
    In terms of establishing a basic floor, this bill 
establishes terms that have been shown to be tried and true and 
effective in ameliorating disruptive activity and ensuring a 
cooperative and productive labor relations system.
    Chairwoman Wilson. Thank you.
    I now recognize Ranking Member Walberg for his round of 
questions--the esteemed ranking member.
    Mr. Walberg. You flatter me. Thank you, Madam Chairwoman. I 
appreciate that, and I appreciate the panel being here today. 
As I said earlier, it is an important discussion.
    Mr. Messenger, we would certainly, together, agree that 
workers should have a right to secret-ballot elections and 
should be free to decide for themselves whether to join and pay 
into a union or to share personal information with a union 
organizer or not.
    Democrats insist these basic protections threaten the right 
to organize. I don't see that. They indicate that it threatens 
the protections to propose or deny all of them legislative 
protection, as well, currently pending before this committee.
    However, I guess I would ask you this question. Do right-
to-work, secret-ballot elections or employee privacy impact 
workers' rights to organize? And, second, why are these 
protections so important for workers?
    Mr. Messenger. Thank you for the questions.
    To answer them in reverse order, the reason they are so 
important is the First Amendment guarantees every individual 
the choice to choose with whom they associate. So the 
government shouldn't be in the business of forcing any 
individual to associate with a union or any other advocacy 
group against their will.
    And to the extent the government does decide to force 
individuals to submit to monopoly representation, at the very 
least, it should be done pursuant to a democratic process in 
which the individuals are guaranteed the right to a secret-
ballot vote, where they can make their choice in the privacy of 
a voting booth as opposed to being forced to make that choice 
in the presence of a union organizer.
    And that goes to the second question with respect to giving 
out employees' confidential information. The information that 
some of these bills seek to require disclosure of is personal 
to those employees. It is personal email addresses, personal 
phone numbers. It is a violation of that individual employee's 
privacy to compel the disclosure of that information to a third 
party that individual may not want anything to have to do with.
    And then, when you couple them together, the disclosure of 
information and the lack of secret-ballot protections, you are 
putting together a very coercive process.
    Mr. Walberg. It takes away their choice.
    Dr. Onder, thanks for being here. Thanks for the work you 
do in the senate. Thanks for being willing to experience the 
impact of a judge and a court decision--
    Dr. Onder. Yes.
    Mr. Walberg [continuing]. even as on the other side with 
Janus, there was a court decision.
    Dr. Onder. Yes.
    Mr. Walberg. And there was disagreement, of course. There 
is disagreement here. And we will see how it all turns out. I 
personally hope it turns out well for you.
    Dr. Onder. Yes.
    Mr. Walberg. As a State legislator, we understand--at least 
we ought to--the primacy of the States is what makes our 
federalism really work. And, sadly, we have moved away from 
that.
    The legislation that you passed requires public employers 
to receive annual authorization from employees before deducting 
union dues from their paychecks. Based on your experience, why 
do you think this paycheck protection provision is an important 
policy for workers?
    Dr. Onder. Yes, I think it is very important because 
workers not only make the decision whether to join or to opt 
out of the union but they should be able to decide whether they 
want their dues withheld or whether they want to opt out.
    And I think what happens all too often--we know that only 5 
percent, fewer than 5 percent, of Missouri government union 
workers have ever had a chance to vote on their union. These 
unions were certified as having monopoly control over 
workplaces decades ago.
    So regularly offering employees the option to continue to 
have dues withheld or to potentially stop having dues withheld 
and leave union membership, I think that is a fundamental 
worker right as well, as well as the right to periodically vote 
whether that worker wants to continue monopoly representation 
by a given union in that workplace.
    Mr. Walberg. You also indicated in your legislation that 
collective bargaining negotiations must be open to the public. 
Why is that important?
    Dr. Onder. Well, because the public has an interest in what 
goes on in those meetings. Public money is being spent; public 
policy is being made right now in behind-closed-doors meetings.
    And I noticed that one of these bills would actually 
exclude management from these negotiations and only give the 
final say to the governing board of that political subdivision.
    So I think more transparency, more ability of the public to 
see how their money is being spent is important.
    Mr. Walberg. Okay.
    Thank you. I yield back.
    Chairwoman Wilson. Mr. Morelle.
    Mr. Morelle. Thank you, Chairman Wilson, for holding this 
important hearing; to all our witnesses for being here today.
    In my district of Rochester and throughout all of New York 
State, we have long stood behind our workers' right to organize 
and collectively bargain. We are a union State. We understand 
that a strong union means effective workplace safety, higher 
wages, reliable benefits, and improved quality of life for all 
of our employees.
    I saw the benefits firsthand while growing up in a union 
household. My dad was a proud member of the Plumbers and 
Pipefitters Union Local 13, United Association, and I worked to 
defend these rights throughout my 28 years as a member of the 
New York State Assembly serving as its majority leader. And I 
am proud to be part of this subcommittee and the majority party 
as we fight to protect and promote strong labor standards and 
the rights our workers deserve.
    The Supreme Court's 2018 decision in Janus was yet another 
in a long history of attacks on labor unions in this country, 
and such decisions are consistent with the sentiments expressed 
by the Trump administration and what I believe is their steady 
campaign to undermine the ability of labor unions to 
collectively bargain and ensure strong labor standards, fair 
and livable wages, and better benefits for all employees.
    My home State was one of the first to respond to Janus, in 
the court case, to ensure our unions and workers knew the State 
was behind them and giving them full-throated support.
    Today's hearing, however, remains as imperative as ever. 
Employees in too many States across the country are robbed of 
the support by misleading right-to-work laws. It is our 
responsibility to continue the fight for workers' rights to 
organize and collectively bargain to ensure fairer standards 
for all, including taxpayers.
    So I wanted to just ask you, Mr. Paterson. I would like 
your perspective on this. In my opinion, the diverse and 
divergent legal regime that currently governs State and local 
employees' ability to collectively bargain and join a union is 
insufficient, and we have seen example after example of the 
poor outcomes that result from the prohibition of collective 
bargaining.
    Given what the ranking member, Mr. Walberg, said, and I 
have had some, as I said, a long history as a State legislator, 
why, in your opinion, does it fall to Congress to create a 
minimum standard instead of--what do you think the best 
argument is instead of leaving it to for essentially a State-
by-State decisionmaking?
    Mr. Paterson. Thank you for that question. And the answer 
is really for the same reasons that 80-plus years ago, Congress 
enacted the Wagner Act, which is that unstable labor relations 
where the right of workers who organize to productively resolve 
their grievances and disputes and to negotiate over wages, if 
they aren't given that productive opportunity, it overflows 
into the economy.
    The public sector is a huge segment of the American 
economy, and we have seen what happens when workers don't have 
a productive means of expressing that right. And we have seen a 
number of strikes in different States, particularly in States 
that don't afford a meaningful right to bargain. So we see this 
kind of activity where there isn't a productive process to 
reach terms and conditions of employment. And so really, it is 
for those same reasons that this bill is necessary.
    Mr. Morelle. Thank you.
    Mr. Brewer, I am just curious. I often know that people who 
are rank-and-file workers are those who come up with the most 
effective reforms about how to do things more effectively, more 
efficiently. In your department, for instance, how challenging 
is it for rank-and-file members to get their employers to 
consider those proposals, to really look at how do we improve 
the functioning of a fire department or a police department? 
Could you just talk about that and any experiences you might 
have had or that members have had?
    Mr. Brewer. Absolutely. And thank you very much. To put it 
just bluntly, it is incredibly difficult for employees to make 
suggestions and have their voices heard. In my testimony, I 
brought up physicals. This is something that, before I was even 
hired on the Charlotte Fire Department, our home local, Local 
660, was advocating for annual firefighter physicals, which is 
kind of the industry standard, and this went on for over 20 
years before we finally got them.
    As part of these physicals, there are some cancer tests in 
there, cancer detection tests. As a lot of you know, cancer has 
been a scourge in the fire service. From 2014 to 2016, in the 
Charlotte Fire Department alone, we have 41 documented cases of 
cancer. We had three firefighters die within a 3-month period 
of time. And I am not saying that these physicals would have 
caught them, but there is a great possibility that they would 
have. But if we would have had the means to simply sit down 
with our employer and say, hey, we want these physicals to 
protect our members to get these tests, it would have been a 
lot easier than having to go to politicians and asking them to 
do it.
    Mr. Morelle. Very good.
    Madam Chair, thank you again for this hearing. I appreciate 
it very much, and I yield back my time.
    Chairwoman Wilson. Thank you.
    And now the distinguished Dr. Roe.
    Mr. Roe. Thank you, Madam Chair. And a full disclosure. 
I've served as a city commissioner and mayor of my local 
community before I was elected. And, Mr. Brewer, thank you for 
your service in the Air Force.
    I also want to thank the Charlotte EMT folks. I found 
myself one morning in the floor of the Charlotte airport doing 
CPR on a gentleman who had a cardiac arrest, and they were able 
to come and assist, and this gentleman survived and did well. 
So I thank you for that.
    I want to get straight to some questions about secret 
ballot. And by the way, I am a huge fan, being the mayor, of 
our fire and police department. In Tennessee where I am in our 
local community in Johnson City, we have an NSO rating of one. 
We do not have a--we are not unionized there, and our police 
officers--I had to put on a scrub suit to go to work every day. 
They had to put on a Kevlar vest. And I have incredible 
respect. And EMTs I worked with as a physician in my local 
community, and I've seen that service improve dramatically 
across the country from when I started the practice of 
medicine. So I want to just say that personally.
    I have a very strong feeling. I put on a uniform and left 
this country to go to Southeast Asia over 40 years ago to 
protect your right to have a secret ballot. I think it is one 
of the most sacrosanct rights we have in America is to be able 
to go behind a screen, and I say this as a joke, and people, 
many have heard it. I don't even know whether my wife votes for 
me or not, because it is a secret ballot. I think it is that 
important.
    And I found it hypocritical that when we developed the 
USMCA, that we had people on this committee right here insist 
that part of the MCA agreement that workers in Mexico had a 
right to a secret ballot, which I totally agree with, but we 
are trying to take that right away from an American citizen. I 
don't understand that.
    And I would like anyone, Mr. Paterson or anybody, to answer 
why you don't think a secret ballot is a good idea when I go to 
vote. For me, every person on this dais was elected by a secret 
ballot.
    Mr. Paterson. Well, the act that is under consideration 
does provide for secret ballots, and it also allows States to 
have laws which afford voluntary recognition on the basis of 
the majority showing of interest.
    Mr. Roe. You would support a secret ballot in union 
elections, then, across the board?
    Mr. Paterson. I would support employee free choice if that 
free choice is exercised in a manner that is not coercive and 
it meets the same requirements that public elections in this 
country--
    Mr. Roe. The way you have a noncoercive--the way it is 
noncoercive is you pull the curtain and you get to vote in a 
secret ballot. That is the way. And, look, if you want to have 
a union, you should be able to vote for it and have it if you 
want to. If not, the people who are in that--and the other one, 
I would like to have a question. Mr. Messenger, you may know 
this. What happened in--because I don't. What happened in 
Wisconsin when the laws were changed there, and the Governor 
there changed the law? There was a lot of turmoil about whether 
you had to pay or not to be in a union. Did people opt out or 
did they stay in? Did they see value from their membership, I 
guess, is what I am asking?
    Mr. Messenger. A large number of employees decided to drop 
out once they had the opportunity to actually make that choice. 
Prior to Act 10, and it was also prior to Janus, you know, 
employees in Wisconsin didn't have a choice of whether or not 
they wanted to support a union. Once they were given that 
choice, a large number decided to opt out. Now, some decided to 
stay. That is also their free choice, but the most important 
thing is that each individual was allowed to choose.
    And if I could also go back to answer your first question 
with respect to secret ballot elections. You know, another 
important part of a secret ballot is that the result is 
respected of that election. Under H.R. 2474, the PRO Act, it 
gives the NLRB the authority, if employees vote against union 
representation, to overturn that result if the NLRB believes it 
doesn't reflect employee free choice, and impose the union on 
those employees that they just rejected.
    And so I think that the PRO Act, you know, in that way, 
even though employees were given the right to vote, it means 
little if their voice isn't ultimately respected.
    Mr. Roe. Dr. Onder, and not only do States and local 
governments have ideological preferences, they also have unique 
needs when it comes to prioritization budgeting, as I know and 
you know as a State legislator, and other decisions governments 
make. Based on your experience as a legislator, why is 
flexibility important for State and local lawmakers, and what 
impact would the bills before us today have on the flexibility 
of that State and local governments they currently enjoy to 
make important financial decisions?
    Dr. Onder. Yes. It is the very essence of our system of 
democratic governance that we elect officials who then make 
decisions. The people exercise their sovereignty through their 
elected officials. And when that sovereignty is replaced by 
behind closed-door negotiations between politicians and union 
officials, that violates that sovereignty, and that is very 
important.
    And I agree with you on secret ballots. Voluntary 
recognition with a card check, voluntary showing of recognition 
and, of course, those cards are obtained out in the open with a 
union organizer pressuring employees to sign them, that is the 
very antithesis of the principle of the secret ballot.
    Mr. Roe. Thank you, Madam Chair. I yield back.
    Chairwoman Wilson. Mr. Courtney of Connecticut.
    Mr. Courtney. Thank you, Madam Chairwoman. And thank you to 
all the witnesses for being here today.
    Mr. Brewer, I just want to sort of foot stomp a point you 
made in your testimony about a practical public benefit of 
collective bargaining which is the apparatus staffing that you 
described where only two are--again, the system that you have 
in the area that you are working. As a member of an 
international, I mean, you are obviously able to compare notes 
with other jurisdictions that do have collective bargaining 
where issues like staffing actually are negotiated. And maybe 
if you could just sort of describe that sort of side by side 
of, you know, colleagues that are in States that recognize 
collective bargaining and the benefits to the public of 
adequate staffing versus nonunion jurisdictions like your own 
where it sounds like you almost have to wait for another 
vehicle or truck to show up before you can actually start doing 
your job.
    Mr. Brewer. Yes. Thank you. Yes, absolutely. We do have 
communities in North Carolina that are severely understaffed, 
places like Boone, North Carolina, for example, you know, where 
there is a major university. They will have trucks with two 
individuals, with two firefighters on those trucks, and it has, 
you know, the possibility to hinder operations.
    Studies show, for example, that four-person CPR is the most 
effective. When it comes to fighting fire, there is like a two-
in, two-out rule. And, you know, if you show up with just two 
people on an apparatus and the house is burning, they will have 
no means to go in until another apparatus arrives.
    And so what we believe is, with this legislation, we would 
be able to sit down with our employer, and again, not just the 
safety of the firefighters, because it does put firefighters at 
risk, we are talking about the safety of the citizens to talk 
about that safety for adequate staffing.
    Mr. Courtney. Thank you.
    Professor Slater, Mr. Messenger in his remarks described 
that the legislation we are considering today runs afoul of the 
10th Amendment. I am sure this is something that you have 
thought about and possibly written about. I was wondering if 
you could comment on that constitutional issue.
    Mr. Slater. Well, there are two issues involved here. The 
first is the straight 10th Amendment issue. When Congress 
extended employment laws such as the Fair Labor Standards Act 
and various antidiscrimination laws to public employees, there 
was a brief dispute in the courts in the 1970's and 1980's 
about whether the 10th Amendment barred that. But ever since I 
was in law school, which was a long time ago, the courts have 
rejected 10th Amendment claims. The Fair Labor Standards Act, 
antidiscrimination laws apply to public employees as well as 
private employees.
    There is an 11th Amendment issue coming from the case of 
Alden v. Maine that would only apply to State employees where 
States have limited immunity for private suits for money 
damages, but that wouldn't be a problem under this law because 
it is enforced by a Federal agency, the Federal Labor Relations 
Authority.
    Mr. Courtney. Great. Thank you for clarifying that point.
    And, Mr. Paterson, again, we heard about Wisconsin's 
experience after it changed its labor laws. The fact of the 
matter is the Bureau of Labor Statistics in January reported 
that union membership among State and local government 
employees actually held steady in the wake of Janus. I was 
wondering if you could comment on that and, you know, in terms 
of obviously you are a union that is all across the country in 
terms of what you are seeing. Also, in terms of what we are 
seeing in terms of efforts in the wake of Janus to, again, get 
folks to opt out and yet, nonetheless, the statistics are 
showing that it has actually held quite steady.
    Mr. Paterson. Yes, you are right. And I understood that to 
be sort of two questions, so let me try to take them in reverse 
order.
    There are currently dozens of corporate finance groups that 
have committed to spending $40 million to $50 million in 
campaigns to try to dissuade public sector workers to quit 
their union. These are glossy brochures that say things like 
quit your union, lose nothing. The union still has to represent 
you. This is quite literally the message they are sending, and 
it hasn't worked.
    Why hasn't it worked? Because members know when they are 
being sold a bill of goods. They know what is at stake. Our 
members know that their union is just that. It is their union, 
and if they quit it, they know what they lose. And so these 
campaigns just haven't worked. They have fallen flat.
    And some are really gimmicky, like, this actually happened. 
One of these corporate-backed operatives was dressed like Santa 
Claus handing out union resignation letters around Christmas 
saying give yourself a pay raise. Those kinds of things don't 
work with our members, because the most powerful thing is an 
educated, empowered worker, and that is what unions do.
    Mr. Courtney. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Wilson. Thank you.
    Mr. Allen of Georgia.
    Mr. Allen. Thank you, Madam Chairwoman. And again, this is 
a great debate that we are having here today.
    You know, after hearing in this Congress my friends on the 
other side of the aisle continue to promote this Federal one-
size-fits-all policy on States and localities, and this hearing 
today seems not to be an exception to that. Of course, we have 
talked about the Supreme Court decision last year which righted 
the ship as far as a significant win for workers rights and the 
First Amendment. Based on what I have studied, the PRO Act 
would undermine the rights of workers in States.
    In my State of Georgia, we have been named the best State 
to do business for 6 years running. We are a right-to-work 
State, and of course, the reason that our business and our 
economy is growing is that the first priority of every 
business, public or private, is a skilled work force.
    Yes, there are many unions working in the State of Georgia. 
In fact, I at one time was a part of one of those, but however, 
the people in Georgia want a choice, and that is the reason our 
laws are written the way they are.
    And Mr. Messenger, the Supreme Court held decades ago that 
workers cannot be required to pay a political portion of union 
dues. As far as the H.R. 2474 is concerned, it would ban State 
right-to-work laws, forcing millions of private sector 
employees to pay union dues or lose their job.
    Are private sector unions' dues being used for political 
purposes and speech to accomplish just that very thing?
    Mr. Messenger. Yes, I believe that they are. A portion of 
union dues, even in the private sector, are used for political 
expenses. Employees do have some rights to object to paying for 
that political portion. However, private sector employees, 
absent a right-to-work law, can be forced to support other 
union speech and advocacy. For example, their speech vis-`-vis 
their employer. And as you mentioned, H.R. 2474 would strip 
employees of their right-to-work protections, such as in 
Georgia, and allow unions to force them to pay fees as a 
condition of their employment.
    Mr. Allen. Currently, we have--and, you know, this, I 
guess, could be debated, but obviously the economy is doing 
well, and I think it is the best in the world. You know, we 
have got more jobs than we have got job seekers, and of course, 
that is why we have teacher shortages. That is why we are 
looking for people to work in the public sector and private 
areas. But the thing that--one of the concerns that I have is 
that union leadership in the public and private sector alike 
have a long history of corruption, embezzlement, and other 
wrongdoings when they are left unaccountable to rank-and-file 
workers.
    And, in fact, I looked it up. For the record, about $16 
million went to Members of Congress from public sector--
political contributions, public sector unions. Ninety percent 
went to one specific party.
    And so, Mr. Messenger, did any public sector bills being 
discussed today help prevent instances of fraud and corruption 
that might go on that--you know, here we are talking about the 
taxpayers, okay. I represent the taxpayers. And what do you see 
out there as far as instances of government and union 
corruption negatively impacting our taxpayers?
    Mr. Messenger. Yes. I didn't see anything in H.R. 2474 that 
would prevent union corruption. In fact, by reinstituting 
forced fee requirements and overriding State right-to-work 
laws, H.R. 2474 would facilitate that kind of corruption. 
Because when employees have the choice to decide whether or not 
to support a union, they can hold the union and its leadership 
accountable by withdrawing their financial support if the union 
is mismanaging the assets. However--
    Mr. Allen. The State senator wanted to say something, and I 
have got 5 seconds. Go ahead, sir.
    Dr. Onder. That is an excellent point. And when corruption 
is uncovered, it is because of Federal LM reporting 
requirements in the private sector. Most States do not have the 
equivalent in the public sector.
    Mr. Allen. Thank you very much. I am sorry. Out of time. I 
yield back.
    Chairwoman Wilson. Thank you.
    Ms. Fudge of Ohio, with the red scarf.
    Ms. Fudge. Thank you very much, Madam Chair. I thought you 
were going to introduce me as distinguished too. So let me see 
if I can distinguish myself today.
    It is just so pleasant to hear my colleague, Mr. Allen, 
talk about--
    Chairwoman Wilson. Prestigious.
    Ms. Fudge [continuing]. supporting choice. I hope maybe 1 
day you all will support a woman's right to choose what she 
wants to do with her own body.
    Mr. Paterson, so happy to see you here. You know, my mother 
is a retiree of AFSCME. She is still very, very involved in her 
union. And I grew up in a household that made me know early on 
what unions can do for people, so thank you for being here.
    Ms. Whitaker, it is a pleasure to meet you as well. I 
understand you are one of my sorority sisters, so welcome.
    I have a question for you, Ms. Whitaker. We are in the 
midst of a national teacher shortage. We have lost more than 
26,000 just African American teachers over the last 8 to 10 
years. Can you tell me why you think that is happening? I mean, 
I understand we have got some poor working conditions and low 
pay, but tell me why you think that is happening.
    Ms. Whitaker. We tend to lose African American teachers 
yearly. The main reason African American teachers are not 
staying, not just the pay, the working conditions. If you are 
not afforded the proper books, the materials that you would 
need to educate your children, and pay, it makes for a rough 
day. Our children need to see African Americans in the 
classroom.
    Also, we need male teachers, African American male 
teachers. Every male in here would like to be able to provide 
for his family. And males, they are not coming. If they come, 
they are only there for a short period of time. So in Miami, 
you can barely afford to live where you work.
    Ms. Fudge. Well, is it true that one in five teachers have 
a second job?
    Ms. Whitaker. Yes, ma'am, we do.
    Ms. Fudge. So the economy is not as great as they say?
    Ms. Whitaker. No, it is not.
    Ms. Fudge. Let me ask you a question, Mr. Slater. Last 
year's teachers' strikes marked a four-decade high in strikes 
in the United States, and most of them occurred in States where 
collective bargaining rights were not there to protect 
teachers. Can you tell me why this was inevitable, where we 
find ourselves today?
    Mr. Slater. From the 1960's through the present, the one 
thing that we know from experience is that strikes in the 
public sector are most common where there are no collective 
bargaining rights for public workers. And as you say, that was 
true in almost all or essentially all the States where there 
were teacher strikes last year.
    The reason is that workers feel, often justifiably, that 
they have no other options to get their employer to listen to 
their concerns, to really take them under consideration.
    In contrast, in my State of Ohio, which not only grants--in 
your State of Ohio, which not only grants collective bargaining 
rights to teachers but permits them to strike in some 
circumstances, there are very few teacher strikes. There is an 
average, as I am sure you know, of about one strike in all the 
public sector every year in Ohio because there are 
alternatives. There is fact finding. There is mediation. There 
is what we call interest arbitration. There are realistic 
alternatives where workers can feel they can get their voices 
heard in these States, unlike States without collective 
bargaining rights where strikes are, unfortunately, a frequent 
last resort.
    Ms. Fudge. Thank you. It seems to me, as I have listened to 
the testimony, that those who find themselves not able to be 
protected by unions find their jobs much more difficult, and 
even some of them who are that are in States that do not 
support and believe in the fundamental right to collectively 
bargain, they are being mistreated in ways that we have been 
looking at for many, many, many years.
    People know that it is labor unions who created the middle 
class in this country. That is why we have a 5-day workweek. 
That is why we have sick time, paid sick time, vacation time, 
because of labor.
    So what I am hearing from my colleagues is that they don't 
want any of that. You know, they just want to save money 
instead of deal with people. Money is not everything, but 
clearly, if we can't pay our teachers who teach our children a 
decent wage, there is something wrong in this country. So that 
is just my point of view.
    I hope I have distinguished myself, Madam Chair. I yield 
back.
    Chairwoman Wilson. You did with putting on that red scarf. 
Thank you. We wear red on Wednesdays for the Chibok girls, and 
that is why you see red on the audience, and even Mr. Walberg 
wears red every Wednesday. You see him? The distinguished Mr. 
Walberg. Thank you so much.
    And now, Mr. Banks of Indiana.
    Mr. Banks. Thank you, Madam Chair.
    As one of the co-authors of the Indiana right-to-work law, 
I have had some experience with this particular topic, and I 
just want to note today how radical some of these proposals are 
that we are debating.
    Democrats are seeking to impose their will on the American 
people by subverting the collective bargaining laws passed by 
their own State governments. I want to make something very 
clear. Washington, DC, has no business telling Hoosiers how to 
run their own State government.
    Indiana's collective bargaining rules have been in place 
since 2005, and we have been a right-to-work State since 2012. 
The choice of whether to change those laws rests with Hoosier 
voters, not the Democrats on this committee.
    Senator Onder, I want to start with you, and I want to 
commend you for the work that you have done on this particular 
issue in Missouri. Could you talk for a minute about how the 
Federal Government takeover of collective bargaining rules 
would specifically hurt your State? And specifically, can you 
talk for a little bit about how it would undermine workers' 
rights regarding agency fees and transparency of union 
expenditures?
    Dr. Onder. Yes. I think that is a very good point. And what 
I would add is not only would these two bills undermine the 
principle of federalism, the right of States, Indiana, 
Missouri, to set their own public sector labor policy, but even 
undermine the ability of political subdivisions, school boards 
and fire boards and cities and counties, to negotiate with 
their workers and set their labor policies.
    But I think that transparency is extraordinarily important. 
When we have uncovered instances of union misuse of fees and 
corruption, it has almost always been in the private sector 
because of Federal LM reporting that has been required since 
1959 in the private sector union arena. So that is why House 
Bill 1413 in Missouri required that similar disclosure of the 
use of union dues.
    We also in 1413 extended to workers the right to vote 
whether or not they want to be part of a monopoly 
representation work force controlled by unions. Not every 
worker wants that. Some of the testimony by some of the 
witnesses alluded to the political activity of their various 
unions. Not all workers want to be part of that political 
activity.
    So these bills are a massive Federal overreach. They are a 
huge violation of the parent principle of federalism. And, you 
know, I commend your work in Indiana and on this committee in 
fighting for the rights of States and of the people expressed 
through their elected officials.
    Mr. Banks. Thank you for that.
    Mr. Messenger, the recent Janus decision allowed government 
workers in non-right-to-work States to opt out of forced union 
dues. Is there any data on how many workers in those States 
have actually chosen to not pay those agency fees?
    Mr. Messenger. Well, we know one thing is that all the 
forced fee payers, which were individuals who were not union 
members who were being forced to pay these compulsory fees 
against their will, were almost all entirely freed in the wake 
of Janus, because Janus was unequivocal that the government 
could not take these individuals' money for union fees without 
their affirmative consent.
    But the next question becomes how many individuals who are 
union members because they now have the right to choose whether 
to support a union decided to drop out? And the numbers on that 
are still really undetermined. They are just rolling in. 
Tomorrow is the 1-year anniversary of Janus, so there are 
really not hard numbers yet on how many exercised that choice.
    But I want to emphasize, the most important thing isn't how 
many exercised that choice to be union members or nonmembers, 
but the fact they have that choice. You know, prior to Janus, 
they didn't have the right to choose whether to support a 
union. The government and union officials forced them whether 
they wanted to or not, and now they have that choice. And even 
if few exercise it, it is still a very important principle.
    Mr. Banks. Thank you for that.
    With that, I will yield back.
    Chairwoman Wilson. Thank you.
    And now, Dr. Shalala of Florida, former Secretary of HHS.
    Ms. Shalala. Thank you very much, Madam Chair. I did wear 
red today, I want to point out.
    Mr. Paterson, we are having a debate about federalism. 
This, in fact, is a debate about federalism. I agree with my 
colleagues. But federalism also allows us as Members of 
Congress to identify when there is a national interest in 
minimum standards and human rights, for example, in civil 
rights. And it is a debate about how workers ought to be 
treated and what are the mechanism by which they will get fair 
treatment.
    So could you talk a little about what is the national 
interest that justifies the kind of legislation that we are 
talking about?
    Mr. Paterson. Yes, I would be happy to, and I think it 
touches on what I was saying before about how it is the same 
interest for which Congress passed the National Labor Relations 
Act. And this bill is not unique in the sense that Congress 
would be enacting provisions governing employer and employee 
relations and terms in public employment. There is a litany of 
examples where Congress has done that, and it has worked well, 
and also in conformity with principles of federalism.
    So I mean, I could rattle off a number of acts like the 
Fair Labor Standards Act or the ADA. The ADA actually requires 
public employers to sit down and engage in a collaborative 
process with employees to reach accommodations when they have 
disabilities. So that is one example where Congress has found 
that the Commerce Clause authority is significant, and the 
effects on commerce are significant enough to establish a 
minimum standard.
    The Pregnancy Discrimination Act, the Equal Pay Act. 
Recently in 2008, the GINA, the Genetic Information 
Nondisclosure Act. USERRA which governs our veterans. So 
important to preserve their rights in terms of their employment 
relations in State and local employment.
    This act that is before you today is just one example of 
the many ways in which the recognition of this important sector 
of the economy should be leveled and should have a level 
standard that applies to all public servants, whether they are 
a nurse in a hospital or working in a correctional facility or 
any number of occupations and industries that have a very 
important effect on commerce and are actually integral to the 
fabric of our economy.
    Ms. Shalala. Thank you.
    I want to welcome Tina Whitaker from Miami, Florida. We are 
happy to have you here.
    Collective bargaining helps, not just the teachers and 
students, but also the whole community. Could you talk a little 
about your experience with UTD, how having a union supported 
your school's broader Miami-Dade community?
    Ms. Whitaker. As a union, we are all over Miami-Dade 
County. We are in our communities. We are not just a union 
within our school building or at a headquarters at United 
Teachers of Dade. Our communities see us there. They call and 
we are there. We are at book fairs, parades. We are at 
community events where our children are. We are at churches. A 
lot of us do attend our churches and synagogues, so they see us 
often. Even when there was a government shutdown, United 
Teachers of Dade was there for the community.
    We are not a selfish union. We provide school supplies for 
those students that cannot afford them. Even the pre-K 
teachers. We provide school supplies for them, because 
unfortunately, the funding that the teachers are given for 
supplies, the pre-K teachers are not included.
    United Teachers of Dade, we are a family, and we look out 
for our community. We are out there. Yes, we do advocacy and 
activism, but that is what you are supposed to do. You are 
supposed to look out for those that are next door to you, 
regardless of whether you are a teacher, a firefighter, a 
professor, a Senator, a Congress person. You are supposed to 
look out for the people that are in your community.
    I always tell my students, learn to lobby for yourself. 
Learn to advocate for you. And I always tell them--I said, 
listen, I start my year out, and I want you to be able to 
understand. I go back to when I have to teach the Holocaust, 
but I would start early. When they came for the socialists, I 
said nothing. When they came for the trade unionists, I said 
nothing. When they came for me, no one was there to speak for 
me.
    United Teachers of Dade, we speak for our community, not 
just the teachers, but we are there for everyone in our 
community.
    Ms. Shalala. Thank you very much. I yield back.
    Chairwoman Wilson. Thank you.
    And now, Mr.--or Dr. Foxx, our ranking member of the entire 
committee.
    Ms. Foxx. Thank you, Madam Chairwoman. I want to thank our 
witnesses all for being here today.
    Mr. Messenger, Democrats' labor agenda this Congress has 
been about imposing the will of union bosses on unwitting 
States, employers, employees, and others in order to reverse 
the decades-long decline in union membership. Why might it be 
in the interest of union bosses to undermine right to work, 
secret ballots, and employee privacy? How do these proposals 
relate to the original intent of the National Labor Relations 
Act?
    Mr. Messenger. Well, all three of those issues, the 
compulsory unionism with compulsory fees, the taking away of 
the secret ballot election, and the disclosure of private 
information, are all intended to facilitate allowing union 
officials to exert their power over individuals who may not 
want to associate with that union. And it perverts the original 
intent of the National Labor Relations Act or of the--as 
amended by the Taft-Hartley Act, I should say, which was to 
facilitate employee free choice, not to have a one-sided, pro-
union type agenda. In fact, you could see that through the 
legislative history.
    When it was originally enacted, the National Labor 
Relations Act was rather one-sided, but Congress corrected that 
in 1947 with the Taft-Hartley Act to provide that employees 
have the right to refrain from supporting a union and to 
protect them from unfair labor practices caused by union and 
union officials. And so there is some balance at present within 
the structure of the National Labor Relations Act. But bills, 
you know, like the PRO Act, are meant to upset that balance and 
very much skew things back against individual employers.
    Ms. Foxx. Thank you. That is the way it seems to us, and we 
appreciate your point of view.
    Dr. or Senator Onder, thank you for being here. I would say 
you are a good example of what Ms. Whitaker says about giving 
back to the community.
    Dr. Onder. Thank you.
    Ms. Foxx. Thank you very much. My home State of North 
Carolina is one of just three States that has no government 
union collective bargaining. It is also one of the fiscally 
healthiest States in the country, as evidenced by several 
massive revenue surpluses in recent years.
    Based on your experience as a State lawmaker, do you 
believe North Carolina's fiscal strength can be tied to the 
absence of collective bargaining in government? How might 
imposing government union collective bargaining in North 
Carolina risk the State's fiscal condition?
    Dr. Onder. Well, a very good question. I think it very well 
may. And conversely, I think the poor fiscal health of some 
other States, Connecticut, Illinois, New Jersey, California, 
can be traced to the collective bargaining agreements that have 
been reached over the years between government and unions.
    If we look at pension liabilities, in New Jersey, every 
man, woman, and child in the State of New Jersey owes $26,000. 
If we look at Connecticut, $33,000. And those pension 
liabilities are the product of decades of negotiations between 
public sector collective bargaining, representatives, and 
politicians.
    Now, I am not here today to say that the Federal Government 
should preempt all that. I believe New Jersey and Connecticut 
and California and Illinois have to get their own house in 
order, but I am saying quite the opposite; that it is up to 
North Carolina, to Missouri, to Georgia to decide what we want 
our public sector policy to be that is important to the 
principle of federalism and even to the sovereignty of the 
voters who elect us.
    Ms. Foxx. Thank you.
    Mr. Messenger, Democrats seek to impose binding arbitration 
on both public and private sector collective bargaining 
negotiations, essentially empowering unaccountable bureaucrats 
to determine workers' contracts and employers' costs. What 
problems might this create for employers' financial stability 
as well as the unique needs of employees?
    Mr. Messenger. Well, there are two issues, the first of 
which is that, you know, going through the binding interest 
arbitration process could result in terms that are disastrous 
for the employer. Under current collective bargaining law, an 
employer does not have to agree to any particular terms. It has 
to bargain to impasse but doesn't have to agree to them. If you 
go to binding arbitration, suddenly the arbitrator is in 
control of importing company policies that may control the fate 
of that company. And also, binding arbitration may upset the 
constitutional basis on which the National Labor Relations Act 
was upheld.
    When it was originally passed, one of the reasons it 
survived constitutional challenge is because it didn't force 
employers to enter into agreements with unions that bind their 
employees. The arbitration would, of course, change that and 
potentially open the act up to legal challenge.
    Ms. Foxx. Thank you very much.
    And thank you, Madam Chairman. I yield back.
    Chairwoman Wilson. Thank you very much.
    Mr. Levin from Michigan.
    Mr. Levin. Thank you so much, Madam Chairwoman. Thanks for 
having this important, important hearing.
    I want to start by just going to much more fundamentals 
than we have talked about. All this talk about compulsory, 
mandatory unionism, which simply means when workers as a group 
choose to form a union, it binds the group. Like many other 
democratic decisions, this horrifies Mr. Messenger, who is part 
of an industry that seeks to do nothing other than destroy 
collective bargaining in the United States.
    The United States is not in compliance with fundamental 
international human rights norms when workers like Ms. Whitaker 
and Mr. Brewer do not have the freedom of association at work. 
ILO conventions, 1987 and 1998, which, to our shame, the United 
States has not ratified, require all workers in society, 
including public sector workers, to have the freedom of 
association. It is a fundamental human right which is denied.
    The idea that we are having this hearing and having people 
and the minority talk about how great it is that we are denying 
a fundamental human right to millions of American workers is 
not something that would happen in virtually any other country 
in the world. In the world. And it is a shame on our country 
that we are even having this discussion.
    And I am here to get us there, somehow to get this country 
to the point where we recognize workers' rights to have freedom 
of association at work, to get the kind of basic things that 
Mr. Brewer has talked about: Safety for firefighters, 
effectiveness for firefighters, basic rights for teachers in 
Florida and other States.
    I want to ask you a couple questions, Dr. Slater, about the 
laws that States have been passing to make it harder and harder 
for workers to organize at the State and local level. Some 
States have required, for example, periodic decertification 
elections. I don't see them requiring election--you know, 
procedures for businesses to be able to, you know, destroy 
their local chamber of commerce or something. It is just unique 
anti-unionism in this country in the public sector.
    But I want to have you explain how these laws are designed 
to undermine unions and whether they also have the effect of 
undermining or hurting government operations.
    Mr. Slater. Yes. Well, two things in response. First, you 
are absolutely right that the United States is in violation of 
the United Nations Universal Declaration of Human Rights and 
International Labor Organization Declaration of Fundamental 
Principles and Rights at Work in terms of collective bargaining 
for all employees, including public employees, being a 
fundamental human right. In fact, both Human Rights Watch and 
Amnesty International have Stated that U.S. laws in this area 
and some States violate international law.
    As for the decertification laws, a few States, Wisconsin 
and Iowa that I can think of off the top of my head, you talked 
earlier about Florida, mandatory recertification elections 
every year whether anybody wants it or not. The way labor law 
has traditionally worked, both in the public and private 
sectors in this country, is you have--you can have 
recertification elections maybe every three--at a minimum, 
every 3 years if 30 percent of the workers want it. And that is 
still true in all the States that provide collective bargaining 
laws. These States that require mandatory recertification laws, 
whether no one wants it or not, it is clearly an attempt to 
destabilize labor relations.
    Unions have to constantly be in a reelection mode whether 
anybody wants them to be or not. Employers don't know how long 
they have to sign a contract for. Employees don't know what 
their rights and wages and obligations will be at work. The 
average union contract lasts about 3 years. That provides for 
stability and predictability for both parties. I don't think 
any of the Governors who signed these laws into effect would 
want themselves to be up for reelection every single year 
because that would create political instability. Same thing for 
unions.
    Mr. Levin. Thank you. And how has the broader attack on 
basic rights of public sector workers to have collective 
bargaining affected the operations of local or State 
governments?
    Mr. Slater. It has destabilized them. It has created a lot 
of people who have left public employment. In Wisconsin, for 
example, there is a lot of people who fled public employment. 
And more generally, weakening unions increases wage inequality.
    Mr. Levin. Thank you.
    And my time has expired, Madam Chairwoman. I just want to 
thank you again for your tremendous leadership in this effort, 
and emphasize the need for us to pass these bills. Thanks, and 
I yield back.
    Chairwoman Wilson. Thank you. Thank you so much.
    Mr. Wright from Texas.
    Mr. Wright. Thank you.
    Mr. Messenger, are you horrified, because you don't look 
horrified to me?
    Mr. Messenger. I am not, sir.
    Mr. Wright. I didn't think so.
    I am glad that we are discussing fundamental rights 
because, to me, the right to work is rather fundamental. And 
other fundamental rights are enshrined in the Bill of Rights, 
one of which includes the 10th Amendment. And that is a very 
important amendment. A lot of people want to ignore it, but it 
is there for a very important reason.
    And when the Constitution was written, Mr. Messenger, 
correct me if I'm wrong, wasn't it the States that created the 
Federal Government, or was it the other way around?
    Mr. Messenger. States created the Federal Government.
    Mr. Wright. And that is why we have a 10th Amendment, isn't 
it?
    Mr. Messenger. Yes.
    Mr. Wright. I am from Arlington, Texas, and I used to serve 
on the city council there for 8 years. And Texas, of course, is 
a right-to-work State. It is one of the fastest growing States, 
and people, workers, and companies, are literally flocking to 
Texas, and have been for 20 years, from overregulated States, 
and they are doing that for a reason. That is because we still 
have freedom and opportunity in Texas, partly because we are a 
right-to-work State.
    Now, when I was on the city council, we had a very robust 
police association, firefighter association, and the city 
council worked with them routinely. And if they wanted 
something and the council didn't give it to them, they could go 
to the people. They could go to the people. And if they could 
get a petition to put something on the ballot, they could, and 
they did, and succeeded.
    Also, after I was on the city council, I was a county 
official, Tarrant County, which is the 15th largest county in 
America. It is large. A lot of employees. It is also one of the 
highest paid of any county in Texas. Tarrant County pays its 
workers higher than other urban counties in Texas that are 
larger.
    Now, Tarrant County, by the way, is majority Republican on 
commissioner's court. They are the ones that decide what the 
budget is and how much people are going to be paid. And our 
workers get paid more than like Dallas County, which is 
controlled by Democrats, Bexar County, which is controlled by 
Democrats, and I can go on and on.
    My point is this: This notion that there has to be 
collective bargaining or workers aren't going to be paid enough 
or workers are going to be underpaid compared to everybody else 
is absolute nonsense, at least in Texas. That is not true at 
all. And we are a right-to-work State, and it works.
    I wanted to ask you, Senator, do you see the same kind of 
results in Missouri?
    Dr. Onder. Yes, we do. And in fact, in Missouri, we have 
had public sector collective bargaining since 1965, but for 
police and teachers, we have only had it since 2007. And in 
between police and teachers, Fraternal Order of Police, the 
Missouri State Teachers Association, would get together and 
meet and confer sessions with management, with the local 
political subdivision leaders, and the system worked well. We 
didn't have this one-size-fit-all federally mandated regime 
that these two bills advocate.
    So, yes, I agree with you that labor and management can 
work together without imposing a Federal structure on our 
cities and our counties and our school boards.
    Mr. Wright. Right. Thank you. I think what is before us 
today does not expand freedom or opportunity. In fact, I think 
it is horribly oppressive on the States.
    And I am going to yield the remainder of my time to the 
ranking member.
    Mr. Walberg. I thank the gentleman. And I thank you for 
your history lesson there of Texas.
    Mr. Messenger, one of the reforms included in Missouri's 
collective bargaining reform is a requirement that unions stand 
for periodic recertification elections, as we have talked 
about. To your knowledge, does any such requirement currently 
exist for private sector workers under NLRA?
    Mr. Messenger. It does not exist. In fact, most private 
sector workers have never had the opportunity to vote on union 
representation. I believe a recent study showed that over 90 
percent have actually never voted for the union that currently 
represented them because the union was voted in or card checked 
in many, many years ago, sometimes even decades ago, and there 
has never been an election. Because under the National Labor 
Relations Act, unless employees can affirmatively put together 
a 30 percent petition within a very narrow period of time, they 
are precluded from demanding an election. And there is a 
variety of tactics that are used such as merging bargaining 
units and such that make it extremely difficult for employees 
to decertify, making the need for recertification elections 
that much more apparent.
    Mr. Walberg. I thank you, and yield back to Mr. Wright.
    Mr. Wright. I yield back.
    Chairwoman Wilson. Thank you.
    Mr. Norcross from New Jersey.
    Mr. Norcross. Thank you.
    I heard when I was out of the room that my State was 
garnering some attention. We are rather unique. We have 
something called public officials with a union label. We have 
members, rank-and-file members from different parts of the 
State who have run for public office. See, we think it is a 
good idea to have somebody who understands day in and day out 
what the average worker goes through. Because one thing we 
understand, if you are not at the table, you are on the menu.
    And the suggestions that I have heard today certainly make 
that absolutely clear. I hear about strikes and shutdowns that 
if public employees had more power would happen. If I recall 
correctly, didn't we sort of have a strike here when we shut 
down government? That is a different story. We will leave that 
for another day.
    Certainly, the recertification--let's be clear here. You 
can decertify a union. That is available to any member at any 
day by putting that together, so don't confuse the issues here 
by talking about that. It is about balance. It is about 
fairness. You don't want it one side or the other. You want a 
cooperative working relationship, something we certainly could 
use here in Congress, that at the end of the day, when you have 
those discussions, it becomes a better workplace.
    In my career prior to coming here to Washington, I was an 
electrician, construction electrician, and one of the most 
important things in collective bargaining is safety. Safety on 
the job. During my period of working out in the field, I 
experienced three horrible days when somebody on my job was 
killed. Something you will never forget.
    So when they talk about overreach of government, OSHA has 
saved thousands of lives, or in the State they called it POSHA. 
That is the sort of regulation that you want, that you work 
together. And quite often as part of the collective bargaining 
agreement are those safety committees that are put together.
    But it is the bargaining table where this should take 
place. The idea of allowing the States to have the same set of 
basic foundation for those employees who want--it is their 
choice if they want to join a union. But when they don't have 
the fundamental right to do it, that is where we are having a 
problem.
    So, Mr. Paterson, I have seen and I have talked about the 
failure to protect workers. Talk to me about those safety 
conditions that might be talked about or written into a 
collective bargaining agreement and how there is either an 
advantage or disadvantage for doing that.
    Mr. Paterson. Health and safety. When you talk to workers 
about one of their most pressing concerns, the answer is--often 
health and safety is at the top of the list. And frankly, 
workers are the people who know what the risks are, and they 
know what can be done to mitigate or eliminate those risks. And 
frankly, they are the ones that suffer if that is not done.
    The process of collective bargaining has and does and has 
always included bargaining over safety standards and protocols 
and the give-and-take of ensuring the employer commits adequate 
resources to ensuring worker safety. And not just worker safety 
but the safety of customers and other people who might be on 
the job site.
    When collective bargaining laws are eliminated or at least 
dramatically curtailed like, for instance, in Iowa recently, 
then workers and their unions do not have that ability, and 
things can quickly go by the wayside. After the Iowa law, HF 
291 was passed, sometime after that, we had a member who was 
actually--Tina Suckow, who was actually a mental health 
hospital worker in Independence, Iowa, was injured severely on 
the job by one of the patients in that facility who was having 
an episode. And the reason is because the safety harness was 
new and was not one that the workers had sufficient training 
in, and she was hospitalized.
    But what is worse than that is that, not only was she 
hospitalized as a result of this extremely dire physical 
attack, was that while in the hospital, she used all her leave, 
and the employer fired her. Now, if we had still had robust 
collective bargaining rights in Iowa, then the union could have 
negotiated over the leave. The employees could have gotten 
together and pooled their leave so that she would have the 
leave to get well, and they could have grieved her discipline. 
But all of these basic fundamental collective bargaining rights 
were eliminated.
    Thank you.
    Mr. Norcross. We are running out of time. Again, I want to 
thank the committee for putting this hearing together. 
Together, working together in a cooperative relationship, we 
really can get this done.
    Chairwoman Wilson. Thank you, Mr. Norcross.
    And now, Ms. Underwood of Illinois.
    Ms. Underwood. Thank you, Madam Chair.
    I am so pleased that we are having this hearing today. You 
know, Janus was an Illinois case, and so this is particularly 
important to many of my constituents.
    I am also pleased that Ms. Whitaker is here. I thank you 
for your many years of service to the children in your 
community. And we have talked with the Illinois Federation of 
Teachers and our friends at AFSCME Council 31 to prepare for 
the hearing today, and so I am just really delighted.
    You know, part of the benefits of union membership are 
ensuring that we have equal pay. And one of the things that we 
did at the beginning of this Congress was, on this committee, 
was we passed the Paycheck Fairness Act. And when we think 
about equal pay for all workers, workers of color, for women, 
unions have led the way and particularly in the public sector. 
And so I think it is critically important to reference the 
historic leadership role that public sector unions have played 
with respect to paycheck fairness and equal pay.
    My question is for Mr. Brewer and Mr. Paterson. It is 
related to public health. I am a nurse, and I spent my career 
as a public health nurse working to expand coverage around the 
country. And so what would you say to those who argue that 
unionization of public safety officials and firefighters would 
have an adverse impact on public health?
    Mr. Paterson. Well, I will address the nurses. You can 
address the firefighters. Thank you.
    Look, there is a tremendous amount of research done by 
higher education institutions in the nursing field, by 
epidemiologists, by sociologists, by public health experts, 
that shows where nurses have a voice on the job and have a 
representative who can amplify that voice and bring that voice 
to the bargaining table, that patient outcomes improve. And I 
could go on, but the evidence is out there and it is a clear 
dynamic. And so collective bargaining improves, not only 
working conditions, but patient outcomes in that field.
    Ms. Underwood. Thank you.
    Mr. Brewer.
    Mr. Brewer. And I would add to that, as our jobs as 
firefighters have evolved over the years, you know, we are at 
the point now where not only are you fighting fires, responding 
to national--natural disasters, we are also medics and we are 
EMTs. So any time there is a car accident, any time an 
ambulance is dispatched somewhere, firefighters are responding.
    You know, we work with different agencies to show the 
effectiveness of four-person CPR. You know, so when you look at 
the save rates at places like Charlotte--and it was even 
brought up here today--you know, those studies show that where 
the union is involved and where we can advocate for these 
things, where we can advocate for, you know, four on a truck, 
you know, for four-person CPR, for car accidents where we are 
going to have to do patient care and extrication at the same 
time, all of this has a major impact on the public and the 
public health.
    Ms. Underwood. And when we think about current priorities 
and challenges that we struggle with as a Nation, like the 
opioid epidemic, all right, we know that many of our 
firefighters are on the front line in every community in this 
country combating, and I know that your union has been active 
in preparing your members for responding to that public health 
emergency. Would you like to speak on that?
    Mr. Brewer. Absolutely, yes. And a lot of times, a lot of 
these conversations today we have centered around pay in that 
we are going to bargain for pay, but we bargain for a lot more 
than pay. It is about health and safety. It is about how can we 
provide better care for the public, how can we provide better 
care for our members.
    And, you know, the opioid epidemic, we have done numerous 
public announcements, training at a lot of our conferences and 
stuff, and then we take that back from the international and, 
you know, disperse it at a State level and on a local level. 
So, you know, we always say that we are on the front lines for 
everything, and firefighters are throughout this country, no 
matter what the situation, we are called a lot of times and we 
are glad to serve, but it would make it a lot easier if we 
could sit down with our employer and talk about what we need 
and how we can make it even better.
    Ms. Underwood. Well, I thank you so much for the work that 
you do in your communities. And thank you for being here to 
share your stories with the committee today.
    I yield back my time, Madam Chairwoman. I yield my time to 
Mr. Scott.
    Chairwoman Wilson. You yield your time to Mr. Scott?
    Ms. Underwood. Yes.
    Chairwoman Wilson. You don't have--you have--
    Ms. Underwood. I yield back. I yield it back.
    Chairwoman Wilson. Okay. Mr. Scott has his own time. Thank 
you so much. We appreciate that.
    This is our distinguished chairperson of the Education and 
Labor Committee, Dr. Scott.
    Mr. Scott. Thank you.
    Mr. Paterson, could you tell us what obligation you have to 
represent nonmembers of the union when there is a union?
    Mr. Paterson. Yes, I can. I think what you are referring to 
is the--what is known under the law as the duty of fair 
representation, which is that when a union represents workers, 
it is not just representing its members or its dues-paying 
members, it is representing the entire collective bargaining 
unit that elected it to represent them. And so the duty of fair 
representation requires that the union fairly represent, as it 
indicates, everyone, not just the members, but also nonmembers.
    Mr. Scott. And if an individual nondues-paying member has 
an individualized case and you represent others in 
individualized cases, would you have an obligation to represent 
that person, notwithstanding the fact they are not paying dues?
    Mr. Paterson. That is correct. We absolutely do have that 
obligation, yes.
    Mr. Scott. And in a fair-share situation where nonmembers 
have to pay a fair share, what are they paying for?
    Mr. Paterson. Well, in the private sector, which currently 
does permit the employer and the union to negotiate a fair-
share system, it doesn't actually impose it as a matter of law, 
but they can negotiate in the contract, and most unions do, 
precisely because the union is obligated to represent the 
entire bargaining unit, and it does so, but that comes at a 
financial cost.
    Mr. Scott. Now, the fair share that is imposed, is that the 
full union dues or just a portion of it?
    Mr. Paterson. No. The nonmembers' fair-share fee is limited 
to the cost of representation. It does not include political or 
ideological expenditures or other things like, you know, 
members' parties and things like that. It is purely the cost of 
representation.
    Mr. Scott. That you are obligated to perform?
    Mr. Paterson. That is correct, under the law.
    Mr. Scott. Thank you.
    Dr. Slater, you had mentioned international standards. 
Where would we see these international standards realized? 
Would it be in treaties and trade agreements and things like 
that? Where would we see the international standards for labor 
rights?
    Mr. Slater. The international standards I referenced 
earlier would be in trade agreements and treaties, as you say, 
but also in the laws of the member countries. So in the laws of 
France, laws of Germany, laws of other Western European 
countries, you would see guarantees for rights of all 
employees, including public sector workers, to bargain 
collectively.
    Mr. Scott. And based on those international standards, did 
I understand you to say that many States don't come up to those 
minimum standards?
    Mr. Slater. Well, it depends how you mean ``many.'' I mean, 
one thing that should be clear is this bill would not affect 
the majority of States. The bill provides that we would--the 
FLRA, the Federal Labor Relations Authority, would review State 
laws to see if they met certain minimums. And I can say 
confidently that a clear majority of States do meet those 
minimums, but in--there is about eight States that don't 
provide any public employees the right to collectively bargain, 
about a dozen more that provide collective bargaining rights 
only to one or two types of employees. And in those States, 
yes, we are not in compliance with international law.
    Mr. Scott. And if a country had those provisions, is it 
likely that we wouldn't do a trade agreement with them?
    Mr. Paterson. If a country had provisions--
    Mr. Scott. If a country didn't have those minimum labor 
rights, is it likely that we wouldn't do a trade agreement with 
them? Don't we usually have--
    Mr. Paterson. Oh, yes. Yes, we do look--I think our--the 
better policy is to look at whether other countries have 
certain minimum labor standards before we do treaties with 
them, yes.
    Mr. Scott. Thank you.
    Senator Onder, in Senate Bill 1413, can you--do you have a 
provision in there that requires a union recertification, that 
requires an absolute majority vote, whether voting or not, 
which essentially means that a no vote, a nonvote is counted as 
a no vote? Is that part of that bill?
    Dr. Onder. So, under 1413, every 3 years there would be a 
recertification election, and recertification would require a 
majority of all those members of the bargaining unit to vote 
yes.
    And, you know, because these voters are all found within 
the workplace, within the bargaining unit, this has not proved 
to be an overly burdensome procedure. In Iowa, well over 95 
percent, I believe, of the bargaining units did recertify under 
Iowa's law.
    Mr. Scott. You and I would be in trouble if we had to run 
an election like that.
    What is the status of the bill at this point?
    Dr. Onder. So, in March, as was mentioned earlier, a judge 
in St. Louis County enjoined the entire bill, which is, I 
believe, an act of judicial overreach of the highest order. The 
judge did not even consider provision by provision but enjoined 
the entire bill. It is awaiting trial in January.
    Mr. Scott. I yield back my time.
    Chairwoman Wilson. Thank you.
    Mr. Taylor from Texas.
    Mr. Taylor. Thank you, Madam Chair. I appreciate this 
hearing and appreciate the witnesses.
    And I served in the State legislature in Texas for 8 years, 
and I happen to represent--I live in the highest per capita 
income city in North America. There is over a quarter million 
people, and as businesses come--and they primarily come from 
union States--and when they cite reasons they come, they talk 
about how Plano has great schools, how we are investing in 
roads, how we have a low tax burden. But another thing that is 
very consistently mentioned is we are a right-to-work State. 
And I think the success of my community, certainly the high per 
capita income is great, but also just looking at the employment 
numbers, since January 2017, we have created 620,000 jobs in 
Texas, and we have a 3-1/2 percent unemployment rate, which is 
the lowest it has ever been.
    So clearly, what has worked for Texas, what has worked for 
my community, I hope that Congress can leave well enough alone 
and say, hey, they have got a right and they are doing a good 
job.
    And, Senator, thank you for being here. I appreciate your 
service, and I know what it means to be a senator. It is great 
that your being here. I never had to do that extra duty. So 
thank you for taking the time to be here--
    Dr. Onder. Thank you.
    Mr. Taylor [continuing]. from The Show-Me State.
    And, Mr. Messenger, I am just going to ask you a very 
technical question about H.R. 1154. And it imposes--without 
imposing a penalty that strikes are illegal for public safety 
officers only when they, quote, will meet or measurably disrupt 
the delivery of emergency services, closed quote, and are, 
quote, designed to compel an employer to agree to terms of the 
contract, closed quote.
    Based on your reading, does anything in H.R. 1154 prevent a 
government unit from striking over a political or a legislative 
issue? I mean, is there anything to stop them from--striking--
nothing to do with work but they can strike over some political 
issue or legislative issue.
    Mr. Messenger. I have noticed no such restriction in the 
law requiring or, you know, limiting when strikes can be over 
and preventing them, you know, with respect to political type 
issues.
    Mr. Taylor. Right. So, like, I mean, an example would be--
you know, I am sure myriad examples. But obviously, that 
creates a whole other level which has nothing to do with work, 
right? I mean, I think we generally think of unions as being 
about work environment, pay, conditions, hours, things like 
that, and a lot of the benefits we have discussed today have 
been about those things precisely, but this allows, you know, 
quote/unquote, politics to be involved and strikes to go based 
on politics.
    Mr. Messenger. Yes. And as the Supreme Court recognized in 
Janus, you know, all collective bargaining in the public sector 
is political. I mean, ultimately the union is trying to 
influence governmental policies, and even things like wages and 
such ultimately effect the public fisc and public services that 
can be provided.
    So in the public sector, all collective bargaining is 
political, which is one of the reasons the Supreme Court in 
Janus held employees couldn't be forced to subsidize that 
advocacy.
    Mr. Taylor. So I guess what you are saying is you could see 
a strike that was purely political in nature and has nothing to 
do with actual work or the work conditions or the employer or 
hour or pay or anything like that. I mean, it could just be 
purely political, and then the employee, the union member is 
then kind of forced to go on a strike that in a political cause 
they wouldn't even want to be a part of.
    Mr. Messenger. Yes. And some of the testimony today I 
believe supports that. You know, there has been the argument 
that collective bargaining, you know, affects public safety. I 
think that is one of the justifications, you know, for the bill 
which we are talking about. So we are talking about something 
that is political ultimately, something that affects public 
safety, even in the opinion of those who advocate, you know, 
for this bill. And so, yes, it is all political.
    Mr. Taylor. Well, and so I think when we think about our 
constitutional rights and something that the Bill of Rights is 
something very important I think to every American. You know, 
in the First Amendment, we have the right to freedom of speech, 
right to freedom of association, three other rights. But 
compelling people to be part of an organization they don't want 
to be part of and, worse, compelling them to participate in 
political speech, which something that may be an anathema to 
them, I think is a disturbing strike at the core of our 
democracy, at the core of this idea of fundamental free speech 
that we can say what we think and we don't have to worry about 
someone telling us what we are going to say and forcing us to 
go on a strike about a political cause that we don't support.
    Mr. Messenger. I agree. I mean, monopoly bargaining in the 
public sector involves the government mandating that a 
particular organization, a union, speaks for a group of 
workers, whether they approve or not. And in my opinion, that 
infringes, you know, on their freedom of association, including 
even if there is a secret ballot election. You know, the 
Supreme Court said in West Virginia v. Barnette, the First 
Amendment exists to protect certain liberties from majority 
rule, and those liberties cannot be subjected to a majority 
vote.
    And so if each individual has the right to decide who 
represents them, who speaks for them in their relations with 
government, which they certainly do under the First Amendment, 
it is unconstitutional, in my opinion, to force individuals to 
accept a representative even pursuant to a majority vote.
    Mr. Taylor. All right. Thank you.
    And, Madam Chair, I yield back the balance of my time.
    Chairwoman Wilson. Thank you.
    Mr. Watkins--
    Mr. Watkins. Thank you, Madam Chair.
    Chairwoman Wilson.--from Kansas.
    Mr. Watkins. Thank you.
    In 2018, my home State of Kansas marked its 60th 
anniversary of becoming a right-to-work State. Kansans felt so 
strongly about this that, in 1958, they voted in favor of 
adding a right-to-work amendment to our State's Constitution. 
Twenty-seven States, including Kansas, have now passed laws 
that prohibit a worker from being forced to join a union. And a 
Bureau of Labor Statistics shows the union membership rate was 
only 10.5 percent in 2018. This is down .2 percent from 2017.
    Senator Onder, you are a neighbor in Missouri, and in your 
State, your State went to the polls to vote on a proposition to 
enact a right to work, but the measure was defeated. We have 
heard a considerable amount today extolling the virtues of 
government union bargaining privileges. You yourself are from a 
State in which government employees have such privileges.
    Dr. Onder. I do.
    Mr. Watkins. In your opinion, as a State lawmaker, do any 
of the benefits of government union bargaining justify Congress 
imposing it onto State and local governments, or would it make 
more sense to advocate--to advocates to have this debate in 
State capitals?
    Dr. Onder. I believe that it does make sense to have this 
debate in State capitals. I think there is no question that 
States have very different labor policies regarding public 
sector unionization, Wisconsin versus New Jersey, Kansas versus 
California. And I think our principles of federalism, our 
principles of democratic self-governance dictate that remain 
the case.
    One of the members emphasized the freedom of association at 
work being a fundamental human right. I would agree with that. 
Doesn't that include the right of that worker to decide whether 
he or she wants to join or support a union? Doesn't it include 
the right of that worker to periodically vote whether or not he 
wants to continue monopoly representation by a union?
    So I believe that our current system of federalism serves 
us well. The needs of New Jersey might be different than the 
needs of Kansas, but to impose a one-size-fits-all tyrannical 
regime from Washington, I think, is the wrong approach.
    Mr. Watkins. Thank you, Senator.
    And I yield the remainder of my time, Madam Chair.
    Chairwoman Wilson. Thank you. Thank you so much.
    And now, we want to welcome Ms. Finkenauer, who does not 
serve on our committee but is a sponsor of the bill.
    Ms. Finkenauer of Iowa.
    Ms. Finkenauer. Thank you, Chairwoman Wilson.
    And also, thank you, Chairman Scott, for allowing me to be 
here today and be part of this discussion which is very 
personal to me.
    I have to tell you it has been an interesting, you know, 
few moments here on this committee listening to some of the 
testimony today, and frustrated and disappointed by some of the 
rhetoric that I have heard spewed that is anti-union and 
antiworker.
    You know, State Senator Onder, you are a neighbor to my 
home State of Iowa. I was a former State legislator myself for 
4 years in Iowa, and I have to tell you, I have done some 
research while I have been up here and, again, your rhetoric 
that you have been spewing against unions and also your record 
against working families is disappointing and, quite frankly, 
offensive.
    You see, this is personal to me. And I grew up a daughter 
of a union pipefitter/welder in Iowa. My mom was a public 
school secretary. Heck, my grandfather was a lieutenant 
firefighter who helped advocate for Iowa's bipartisan 
collective bargaining law back in the seventies. It is a law 
that has worked well in my State, and it is a law that, sadly, 
I saw destroyed during my time in the State House.
    You see, I will never forget February of 2017, standing on 
that State House floor after days of hearing testimony from my 
friends, my family, and my neighbors in my home State who are 
just working their tails off to provide for their families, 
folks like our teachers, our corrections officers, our bus 
drivers, who aren't asking for a whole heck of a lot but were 
asking to be treated with dignity and with respect.
    And there we were standing on that State House floor, and I 
looked up into that gallery as my Republican colleagues in the 
State of Iowa were about to vote yes to gut their rights. And I 
looked up and I saw tears in many of their eyes, and I had 
tears in my own, thinking to myself in that moment that is not 
how we treat people in my State or in my country and I was 
going to do whatever I could to get it back.
    So here I am in Congress, right now, working with my 
colleagues, trying to fight like heck for my friends, my 
family, and my neighbors who I saw the State of Iowa let down.
    You see, we have got a lot of issues since that gutting of 
collective bargaining happened in the State of Iowa. And, heck, 
since 2011, actually, we have lost a thousand public employees 
in the State. These staffing shortages now that we have seen 
since the gutting of collective bargaining has resulted in a 
failure to train employees on vital safety measures, which have 
literally put their lives on the line. And in one State mental 
health facility in my own district, four employees have been 
attacked in the last 10 months. It is unconscionable. And, 
again, this is not how you treat people in my State or in my 
country.
    The law also quite literally created a system that was 
rigged against working people, forcing unions to go through a 
costly and burdensome recertification process that was designed 
to make them fail, but they didn't. As you said, 95 percent of 
them were recertified, because they worked their tails off and 
they appreciate their unions who step up for them, who have 
their backs every single day.
    And I have to tell you, I am proud to represent my friends, 
my family, and my neighbors. I was proud to represent them in 
the State House, and I am proud every day to represent them in 
Congress. And I am also proud to now be a sponsor of the Public 
Service Freedom to Negotiate Act, again, with my colleagues 
here today. It prevents States from attacking public employees' 
collective bargaining rights like they did in Iowa, ensuring 
that they can negotiate for fair pay and safer workplaces.
    I am grateful for all of you being here today. But I would 
really like to focus on these last few minutes of this 
committee, if Mr. Paterson and Dr. Slater can walk us through 
how this legislation that I mentioned, that Public Service 
Freedom to Negotiate Act, will help workers in States like 
Iowa, like mine, and like those across the country, who have 
seen their rights already undermined.
    Mr. Paterson. Well, in the short time--thank you and thank 
you for supporting this bill and sponsoring it. We are very 
grateful. The--and I see I only have a few seconds, so let me 
just say that the bill essentially does three things. It 
ensures that a major sector of the work force can actually 
exercise the constitutional right to form and join a union. It 
ensures that employers have to sit down and talk to the union 
and negotiate with the union that the workers have elected. And 
then if they can't reach an agreement, it applies objective 
processes to make sure that those disputes don't boil over, 
that the parties don't resort to brinkmanship or other 
existential type of tactics and, instead, work productively to 
reach a solution and for the better of everyone in the economy.
    Thank you.
    Ms. Finkenauer. Thank you very much.
    And I yield back.
    Chairwoman Wilson. Thank you so much.
    You can put that into the record for us in writing, the 
answer.
    That would be for Ms. Finkenauer and other members of the 
committee.
    Thank you, Mr. Paterson.
    I remind my colleagues that, pursuant to committee 
practice, materials for submission for the hearing record must 
be submitted to the committee clerk within 14 days following 
the last day of the hearing, preferably in Microsoft Word 
format. The materials submitted must address the subject matter 
of the hearing. Only a member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the committee clerk 
within the required timeframe, but please recognize that years 
from now that link may no longer work.
    Again, I want to thank the witnesses for their 
participation today. What we have heard is very, very valuable. 
Members of the committee may have some additional questions for 
you, and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be open for 14 
days in order to receive those responses.
    I remind my colleagues that, pursuant to committee 
practices, witness questions for the hearing record must be 
submitted to the majority committee staff or committee clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    Before recognizing the ranking member for his closing 
statement, I ask unanimous consent to enter into the record the 
following materials: Letters from the Service Employees 
International Union, the Leadership Conference on Civil and 
Human Rights, and the International Federation of Professional 
and Technical Engineers in support of the Public Service 
Freedom to Negotiate Act of 2019, H.R. 3463; and a letter from 
the National Association of Police Organizations, Incorporated, 
in support of the Public Safety Employer-Employee Cooperation 
Act, H.R. 1154.
    I also ask unanimous consent to enter into the record a 
statement from Senator Mazie Hirono, who has championed the 
Public Service Freedom to Negotiate Act in the Senate.
    Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. I now recognize the distinguished 
ranking member for his closing statement.
    Mr. Walberg. I thank the gentlelady and our Chairman, and 
thank you for running the Committee the way you have. I 
appreciate that.
    And I thank all of the witnesses who have been here today. 
The panel has been valuable to us. I especially want to thank 
Ms. Whitaker and Captain Brewer for being here as evidences of 
the public sector employees that this legislation would 
definitely deal with.
    Being a son of a schoolteacher, a nephew of three 
schoolteachers, a father-in-law of one schoolteacher, I 
appreciate the work you do, Ms. Whitaker.
    And being the son-in-law of a firefighter, I appreciate 
what you do.
    And I appreciate the fact that, oftentimes, when we get 
into legislation like this or we get into votes about public 
sector, unionization, and benefits, we always put forward the 
first responders and the teachers, because that pulls the 
heartstrings, as it ought to, of our citizens. I am not 
denigrating public employees that aren't first responders or 
schoolteachers, but you folks are on the front lines doing 
things that some of us can't do or won't do, and we appreciate 
your efforts.
    The comments that have been made today, the questions and 
the answers that have been given have been helpful. One set of 
comments and indications that I heard, though, did cause me 
concern. We are not any other nation in the world. Can I make 
that clear? And I think many of us believe that. I hope all of 
us believe that. We are not any other Nation in the world. 
There is an international community. The United States of 
America is separate from any other nation in the world, and it 
ought to be.
    We started out as a Nation that broke away from 
international regulations on us that we would not accept. We 
fought a revolutionary war to be unique. And what was that 
uniqueness? Freedom. Personal liberty.
    We are endowed with certain unalienable rights given to us 
by our Creator, as the Declaration of Independence says, 
namely, the right to life, liberty, and the pursuit of 
happiness. And we are talking about liberty and the pursuit of 
happiness here in this discussion today. We are talking about 
the freedom to make choices, significant choices.
    I appreciate the sponsor of the bill pointing out that 
after the law was changed in Iowa, there has been a 95 percent 
recertification by people who had that choice and made that 
choice.
    I don't think anyone on this side of the aisle, regardless 
of what has been said by some of our friends and colleagues on 
the other side, a few who indicated very clearly that we oppose 
unions and collective bargaining. No, we don't. I was a union 
member and benefited from my father being a union member and 
helping to organize steel unions or steel mills in Chicago. My 
working conditions were far better than his were because of 
what the union did.
    We are not against that, but we are saying there ought to 
be choice, that free citizens in a free country, unique and 
separate from any other nation in the world that has the 
highest standard of living, is a manufacturing nation of the 
world, leads in every other way, and wants to continue. And I 
come from a State that still people say you have got to be 
kidding. Is Michigan a right-to-work State? They can't believe 
that, and yet it is. And Michigan has more jobs coming back 
now, jobs that we lost before, more security in the work force, 
better pay. A middle class is coming back. Great cities like 
Detroit that are reemerging as a result of freedom and choice. 
That is what we are asking for.
    But I also state, in this particular issue with public 
sector employees, it is different. I don't have tenure. I have 
to go to the ballot box every year. I have to recertify every 
year myself because I am a public servant, and public servants 
take on that role, whether it is in teaching and firefighting 
and in law enforcement or in doing the bureaucratic work that 
is necessary to run a system of government that meets the needs 
of people.
    But we are different. We want to make sure that our 
citizens, the taxpayers, are represented well and are given a 
chance and not simply run over by a political system that 
unionizes for that purpose and purpose alone and doesn't give 
the choice to their employees.
    So, Madam Chairperson, thank you for giving me the 
opportunity to make this statement. The differences in State 
government are unique and beautiful things. That is the 
undergirding of this great democracy, a Republican form of 
democracy, a constitutional democracy, but it started at the 
behest of the States. So to denigrate the powers of the States 
and the rights of the States by taking those away that they 
give to us as the Federal Government, not the other way around, 
is the wrong way to go.
    Let's continue to communicate to work together, but let's 
enforce the freedom that comes from individual States being 
laboratories of success or failure, but in the end, 
laboratories that ultimately produce better success.
    Thank you, and I yield back.
    Chairwoman Wilson. Thank you.
    I now recognize myself for the purpose of making my closing 
statement.
    Thank you again to all of the witnesses for your 
testimonies today.
    Today, we heard about the status of public sector 
collective bargaining and the legislative proposals which 
ensure State and local government employees can exercise this 
right. These bills create minimum standards for collective 
bargaining rights that all States must meet to secure public 
servants' right to collectively bargain.
    We heard from Ms. Whitaker how what the difference between 
not having a union and having one meant to her as a teacher, 
and how these rights are now under attack in my State of 
Florida. We heard from Mr. Brewer on how collective bargaining 
protects the safety of both our first responders and the public 
at large. We will stand with both of them and with all public 
servants to assure that they have respect and dignity on the 
job.
    I was a teacher before the United Teachers of Dade was 
organized in Miami, and when it was organized, oh, boy, what a 
difference did it make in my life and the life of my family. I 
had healthcare, not only for me but my family, and a great 
middle-class salary.
    We can't go back. We won't go back. And as our witnesses 
have made clear, Congress must pass the Public Service Freedom 
to Negotiate Act and the Public Safety Employer-Employee 
Cooperation Act to protect public servants' rights to organize 
and collectively bargain.
    Once again, I thank the witnesses for being here, thank the 
audience for staying through this long hearing, and I thank my 
colleagues for a constructive Health Subcommittee hearing.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
